      “....The work we do – the science and engineering we support – helps
      as much as any human action to combat the global factors that
      encourage events such as Tuesday’s, which include ignorance, poverty
      and prejudice. Every week we move the boundaries of knowledge
      and reason a little farther ahead. Every month we get genuinely, if
      sometimes imperceptibly, closer to a world in which decency,
      community, tolerance and freedom can flourish.”


                                         Dr. Rita R. Colwell
                                         Director, National Science Foundation

                                         September 14, 2001
                                         National Day of Prayer and Remembrance




Front cover photograph: AP/Wide World Photos
                                                  From the Inspector General


        T
             his report highlights the activities of the National Science Foundation (NSF) Office of Inspector
              General (OIG) for the six-month period ending September 30, 2001. The time period is one
              I am certain we will never forget because of the horrendous events that occurred on September
11 . Traveling in China during the attack, I experienced an outpouring of support for this country at a
   th

very personal level. The National Natural Science Foundation of China telephoned to convey official
sympathy to me and to all Americans. More spontaneously, many people stopped me on the street to
express, in any way that they could, their sorrow and sympathy. Some spoke a few words of English
expressing sadness and sorrow; some gestured by touching their hearts and caressing hands. From time to
time I also ran into tour groups from other countries, such as Australia, New Zealand, France, Spain, and
Japan. All of the expressions of concern and grief were poignant reminders that people care about
people.

     As we continue to recover from the attacks, I am proud to report that our office successfully carried
on its responsibilities during these trying times, including contributing to the recovery efforts of the
Pentagon. The following is a summary of some of the more significant issues described in this semiannual
report:

    •   Seven audits of awardee institutions’ cost-sharing practices reveal that problems in accounting for
        cost sharing are prevalent even among some of NSF’s largest grant awardees. These weaknesses
        continue to undermine NSF’s ability to oversee an award, and to the extent they cause NSF to pay
        more than its fair share, reduce opportunities to fund other awards. (p. 21)

    •   The Inspector General testified before the House Subcommittee on Research in September about
        NSF’s Large Facility Projects Management & Oversight Plan. NSF’s plan addresses weaknesses
        associated with large project management that were identified in a previously reported OIG audit
        (see March 2001 Semiannual Report, p. 6). I advised the Subcommittee that although the draft
        plan was an important first step, NSF needed to strengthen it to improve accountability, authority,
        and post-award project management. (p. 3)

    •   An audit of an international research institute that received approximately $2.2 million annually
        from NSF indicated that the director invested NSF award funds in the stock market. The money,
        intended to support scientific research, was invested in volatile stocks and mutual funds through a
        margined investment account over which he had sole authority. Although there was no evidence
        of fraud, the actions of the director subjected U.S. Government funds to an unacceptable level of
        risk and reflected weak internal controls and oversight on the part of the institute and its governing
        council. (p.7)

    •   Audits of education awards and NSF contracts indicate increased risks of non-compliance with
        award conditions. Averaging $500,000 each, the education grants tend to be much larger and
        inherently riskier than the typical NSF grant. We conducted five audits of education awards with
        claimed amounts of $18.7 million and questioned costs totaling over $3.9 million. Audits of NSF
        contracts worth $25.7 million resulted in our questioning $1.2 million, with instances of material
        non-compliance with federal regulations and internal control weaknesses cited for three of the five
        contractors. (p. 8, 14)
    •   Our FY 2000 Management Letter Report to NSF recommends improved financial reporting and
        award administration. We suggested that NSF develop performance measures and goals that can
        be linked to the budget, actual costs, and management challenges. The report also proposes a risk-
        based approach to monitoring and overseeing grants and awards. (p. 6)

    •   An investigation of a Small Business Innovative Research (SBIR) grant determined the recipient
        had grossly misrepresented the accomplishments of his Phase I SBIR grant. The text of the final
        report was essentially copied verbatim from a Masters thesis written, by one of the subject’s graduate
        students, before the grant was awarded. We found that, in fact, no work at all had been performed
        by the subject under the Phase I grant. On our recommendation, NSF suspended the grant. The
        subject subsequently repaid $198,975 to NSF and made an unrestricted donation to NSF of an
        additional $27,500. Other aspects of this case are still being reviewed. (p. 41)

    •   An investigation of an SBIR grant proposal determined that the principal investigator (PI) had
        plagiarized a significant portion of the material contained in the proposal. The PI copied materials
        verbatim from six different source documents. We also determined that the PI had submitted
        proposals to two other federal agencies with plagiarized material. We recommended that NSF find
        that the scientist committed misconduct in science, send a letter of reprimand, and require oversight
        by this OIG for a period of two years to assure that any documents he submits to NSF contain no
        plagiarized material. (p. 34)

    •   As part of our ongoing effort to reach out to the research community, we developed an Education
        and Outreach Plan during this semiannual period. Our goals, which are based on the OIG Strategic
        Plan, are to ensure the integrity of financial administrative and research systems; prevent and
        detect fraud, waste, abuse, and research misconduct; maintain current knowledge about the
        communities we serve to enable us to focus on matters of substantive concern; and make it easy
        for the communities we serve to contact and interact with us. (p. 49)

     As we move into fiscal year 2002, we are committed to assisting the National Science Foundation in
addressing the challenges it faces in the rapidly changing world of science and technology. As the Congress,
the National Science Board and the NSF adjust the agency’s priorities to meet new national priorities, the
OIG will be flexible so that we can continue to add value to these efforts. We appreciate the past cooperation
and responsiveness of the National Science Board, the Director and others in NSF and look forward to
continuing our productive working relationship.




                                                                                 Christine C. Boesz, Dr.P.H.
                                                                                          Inspector General
                                                                                          November 2, 2001
                                                                                  Table of Contents


OIG Management ............................................................................ 1
        Congressional Relations ............................................................................... 1
        OIG Performance Plan................................................................................ 4

Audits and Reviews ........................................................................ 5
        Administration and Management ................................................................. 5
        Award Administration .................................................................................. 7
               Education Related Audits ................................................................ 8
               Contract Related Audits ..................................................................14
        Cost Sharing ...............................................................................................21
        Polar Programs ...........................................................................................28
        Other Audit Activities .................................................................................30

Investigations............................................................................... 33
        Administrative Investigations ......................................................................34
                Findings by the Deputy Director ....................................................34
                Administrative Investigations Forwarded to the Deputy Director ...34
                Significant Administrative Cases .....................................................36
        Civil and Criminal Investigations ................................................................41
                Cases for Criminal Referral .............................................................41
                Computer Intrusions ......................................................................43
        Improvements in the Investigative Process .................................................44
        Overview of Case Activity ..........................................................................46

Outreach...................................................................................... 49
        Outreach Activities .....................................................................................49

Statistical Data ............................................................................. 55

Appendices
        Reporting Requirements .............................................................................67
        Management Challenges .............................................................................69
        Acronyms ...................................................................................................71
                                                               OIG Management

Congressional Relations
      Recognizing the value of an independent perspective, Congress
frequently calls upon the OIG to provide information, analysis, and
testimony related to significant agency issues. During this semiannual
period, our office responded to the following requests:



Congressional Request
for Top-10 Performance Measures

     The Government Performance and Results Act of 1993 (GPRA)
requires federal agencies to evaluate the results of their activities. For
NSF, this involves evaluating and measuring the long-term results of
basic research, a formidable task. But despite the difficulties inherent
in measuring the success of basic research, NSF is making progress in
complying with GPRA and devotes considerable resources toward this
effort.

     With little independent verification of GPRA data being
performed, the validity and accuracy of the information that agencies
report under GPRA have been a concern of the General Accounting
Office, and consequently were included in the OIG’s current list of
NSF’s major management challenges. In response to these concerns,
NSF engaged an independent public accounting firm to verify and
validate selected FY 2000 GPRA performance data as well as the
process used in collecting and compiling the data and information.

     In response to a request from the Chair of the House Committee
on Government Reform, we selected the ten most significant
performance measures contained in NSF’s FY 2000 GPRA Performance
Report and paid particular attention to whether the data underlying
these measures had been verified and validated. In our assessment,
NSF’s ten most significant performance measures are:




                                                                             1
OIG Management




                    •   NSF’s use of Committees of Visitors and Advisory Committees to review
                        program practices, processes, and results for NSF’s four qualitative outcome
                        goals;
                    •   Percent of funds allocated to projects selected through an external, merit-
                        based, competitive process;
                    •   Percent of proposals submitted electronically through FastLane;
                    •   Percent of program announcements and solicitations available at least three
                        months prior to deadlines or target dates;
                    •   Percent of proposals processed within six months of receipt;
                    •   Percent of competitive research grants awarded to new investigators;
                    •   Efforts to attract job applications from members of underrepresented groups
                        in order to increase NSF staffing in those groups;
                    •   Comparison of facility projects’ actual total cost with planned total cost;
                    •   Comparison of facility projects’ actual construction progress with planned
                        schedule;
                    •   Comparison of facility projects’ actual operating time with scheduled
                        operating time. (The operating time of a facility is a measure of its efficiency.)

                      Of these ten performance measures, the underlying data for six were verified
                 and validated. NSF indicated that it plans to expand its verification and validation
                 efforts in the near future, and have its independent contractor review the data
                 underlying three more of these measures.



                 Congressional Testimony

                      During this semiannual period, the Inspector General was invited to appear
                 before two separate congressional committees to testify about several management
                 issues reported on by the OIG. In June, Dr. Boesz testified before the Senate
                 Committee on Appropriations Subcommittee on VA, HUD, and Independent
                 Agencies (Appropriations Subcommittee) as part of the hearing on NSF’s FY 2002
                 appropriation. Additionally, in September, Dr. Boesz testified before the House of
                 Representatives Committee on Science Subcommittee on Research (Subcommittee
                 on Research) as part of a hearing on NSF’s Major Research Facilities: Planning and
                 Management Issues.



                 Senate Hearing on Appropriations

                    The Senate Appropriations Subcommittee invited the Inspector General, the
                 NSB Chair, and the NSF Director, to testify at the hearing on NSF’s FY 2002



          2
                                                                  OIG Semiannual Report       September 2001




appropriation, regarding the major management challenges that face the National
Science Board and NSF over the next year. Dr. Boesz focused her testimony on
three of the management challenges, discussed in the March 2001 Semiannual Report
(pp. 4-6), that involve management of NSF’s awards: Award Administration,
Management of Large Infrastructure Projects, and Cost Sharing.

     Dr. Boesz testified that as the nature and composition of NSF’s awards change,
new challenges arise in the way they are managed. These challenges must be
addressed. For example, NSF should focus on the interactions among its program,
grant, and contract officers so that information vital to managing awards can be
shared. NSF should also identify those awards and institutions that are likely to
pose greater risk and accord them closer oversight.

     Additionally, because NSF is increasing its investment in large infrastructure
projects, Dr. Boesz testified on the need for greater oversight and management of
these awards. Finally, as first identified in the September 2000 Semiannual Report
(p. 11), OIG audits are finding an increasing number of issues associated with cost
sharing. Consequently, Dr. Boesz testified that improving its administration of awards
requiring cost sharing is among the most important priorities for NSF management.



House Hearing on Major Research Facilities

      As discussed in the March 2001 Semiannual Report (pp. 6-7), NSF is in the
process of updating its policies and procedures to strengthen the management and
oversight of large facility projects. As part of this process, NSF is developing a
Large Facility Projects Management and Oversight Plan. NSF has sought OIG input as it
developed this Plan, and OIG has responded with comments to NSF throughout
this process. In September, the House Subcommittee on Research convened a hearing
on NSF’s Major Research Facilities: Planning and Management Issues and invited
Dr. Boesz, the NSB Vice-Chair, and the NSF Director, to testify regarding the OIG’s
recent review of NSF’s procedures and policies in this area.

      The IG testified that the Large Facility Projects Management and Oversight Plan is an
important first step in the process of ensuring that NSF’s large facility projects provide
their intended research benefits while also providing appropriate stewardship over
public funds. She further stated that the Plan represents progress toward laying the
groundwork for all of NSF’s efforts in the area of large facility management and
provides a blueprint for future actions.

     However, Dr. Boesz noted that awards for large facilities are inherently different
from those that NSF makes to institutions for individual research and research projects
and therefore require a different management approach. Her testimony focused on



                                                                                                3
OIG Management




                 several issues related to the implementation phase of large facility projects, and
                 recommended improvements in the areas of accountability, authority, and post-
                 award project management. The IG stated that the role of our office would be to
                 work with NSF to ensure that sound business and management practices are in
                 place in order to advance NSF’s scientific goals.



                 OIG Performance Plan
                       The OIG is nearing completion of our first performance plan. Built on the
                 strategic plan that we developed last year, the performance plan lays out goals,
                 performance measures, and strategies for improving the OIG’s performance. We
                 plan to use FY 2002 to measure our baseline performance and to use the baseline
                 information we generate this year to set meaningful targets for FY 2003.

                       We held a two-day all staff retreat in June to discuss what measures, strategies,
                 and actions we should give priority in FY 2002. The retreat built on extensive
                 consultations among our managers and staff
                 about the key areas in which the OIG should
                 strive for improvement. We anticipate that
                 the performance plan, which is based on the
                 requirements of the Government
                 Performance and Results Act, will be a vital
                 tool in managing our office, holding
                 individual managers accountable for
                 achieving goals, as well as providing useful
                 data for external audiences interested in our
                 performance.
                                                                      The Inspector General responds to a
                                                                      question during a discussion of the
                                                                             OIG performance plan.




          4
                                                               Audits Reviews&
     W
                 e are responsible for auditing grants, contracts, and
                 cooperative agreements funded by NSF, and for
                 reviewing agency operations to ensure that they are
conducted effectively and efficiently. Financial and compliance audits
determine (1) whether costs claimed by award recipients are allowable,
reasonable, and allocated to the proper award, and (2) if awardees had
adequate procedures and controls to ensure compliance with federal
laws and regulations, NSF requirements, and the terms and conditions
of the award. Performance audits and reviews evaluate the effectiveness
and the efficiency of the administrative and programmatic aspects of
NSF and awardee operations. In addition, by law we conduct the annual
audit of NSF’s fiscal year financial statements, including evaluations of
internal controls and data processing systems.



Administration and Management
     Improving financial management and information security has
been an important priority of the Federal Government for many years.
Their importance was reaffirmed in August 2001, when The President’s
Management Agenda identified improved financial management as one
of five government-wide initiatives the new administration would
undertake. The President’s goal is to ensure that federal financial
management systems produce accurate and timely information to
support operating, budget, and policy decisions.                                  HIGHLIGHTS
     Since 1990, Congress has enacted several laws that are designed        Administration
to improve federal financial management and information security. The       and Management            5
Chief Financial Officer’s Act of 1990 (CFO Act), as amended,
established the legal framework for improving federal financial             Award Administration      7
management. The CFO Act requires that federal agencies prepare
financial statements and the agency’s OIG, or an independent public                                  21
                                                                            Cost Sharing
accounting firm selected by the OIG, audit these statements. The
Government Information Security Act (GISRA), enacted in October
                                                                            Polar Program Reviews    28
2000, requires that agencies perform annual reviews and report on their
information system security programs. In addition, Inspectors General
are to provide independent evaluations of the information security          Other Audit Activities   30
program and practices of their agencies. On September 10, 2001, NSF
and the OIG submitted the agency’s first report under this Act.

                                                                            5
Audits & Reviews




                         During this semiannual period the Office of Inspector General issued two reports
                   that resulted from work performed in accordance with the CFO Act and GISRA. In
                   addition, a report on the financial results of the Ocean Drilling Program was also
                   issued at NSF’s request.



                   Management Letter

                         We issued our FY 2000 Management Letter Report to NSF, containing details on
                   internal control findings and recommendations identified during our FY 2000 financial
                   statement audit and review of NSF’s electronic data processing controls. The
                   Management Letter Report made several recommendations to NSF management for
                   improving financial reporting and electronic data processing including a
                   recommendation that NSF develop performance measures and goals that can be
                   linked to the budget, actual costs, and management challenges. In addition, it
                   recommended that NSF incorporate a risk-based process for grant monitoring and
                   oversight to ensure that NSF funds are spent only for the purposes intended by the
                   grant. Management has prepared a response to the recommendations that is currently
                   under review by our office.



                   GISRA Report

                        In accordance with procedures established by the Office of Management and
                   Budget (OMB), NSF and the OIG provided to OMB an agency evaluation and an
                   independent assessment of NSF’s information security programs and practices. We
                   reported that for several years the OIG has worked closely with NSF management
                   to strengthen the agency’s information security program. NSF continues to
                   demonstrate its commitment to improve information security programs and processes
                   and has made significant progress toward meeting GISRA requirements. However,
                   the report noted that improvements to information security systems were needed to
                   reduce the risk of (1) loss, misuse, and unauthorized access to and modification of
                   information and (2) disruption of services. The OIG plans to review these areas in
                   more detail during its audit of NSF’s FY 2001 financial statements.



                   Review of Ocean Drilling Program Financial Reports

                        The Ocean Drilling Program (ODP) involves an exploration of the Earth’s
                   crust beneath the ocean to reveal the composition, structure, and history of the
                   submerged portion of the Earth’s surface. The program is being carried out by NSF



            6
                                                               OIG Semiannual Report September 2001




in partnership with seven international members that represent over 20 countries.
As prescribed in a Memorandum of Understanding, NSF and the international
members jointly contribute approximately $46.5 million annually to support ODP
science planning and operations. At NSF’s request, we performed a review to verify
that the amounts of contributions, receipts, and obligations were accurately reported
in the ODP Financial Reports.



Award Administration
International Research Institute Invests Government Funds
in Stock Market

      In July, we reported on an audit of an international research institute that has
received an annual grant from NSF of approximately $2.2 million to support its
research programs since 1992. A U.S. honorary society has received a separate NSF
grant to act as the U.S. member organization, which is responsible for overseeing U.S.
interests at the institute.

     Our audit found that the institute’s management controls were inadequate to
effectively safeguard NSF funds. In particular, the governing council failed to
adequately oversee the director’s management of the institute’s finances. Acting
within his authority granted under the institute’s charter and council resolutions, the
former director invested member funds in stocks, bonds, mutual funds, and cash
through a margined investment account over which he had sole signature authority.
The investments subjected member funds to an excessive level of risk and violated
OMB Circular A-110, which limits investment of funds from a government award to
short-term interest bearing accounts. The value of the investment account averaged
almost $6.6 million from 1997 to 2000.

      Several causes of weak financial controls and oversight were cited. A lack of
clarity in NSF’s award agreements with the institute and the U.S. member organization
contributed to confusion about U.S. requirements for the award. Similarly, the U.S.
member organization’s oversight role was not clearly defined in its grant agreement
with NSF, and communication between NSF and the U.S. member organization was
incomplete, particularly regarding events and discussions occurring at the institute’s
council meetings. However, regardless of the lack of clarity as to its oversight role,
we found that the institute’s governing council, including the U.S. member organization
which was representing U.S. interests, failed to exercise good judgement and did not
effectively oversee the financial management of the institute.




                                                                                          7
Audits & Reviews




                         We recommended that NSF undertake efforts through the U.S. member
                   organization to strengthen the institute’s financial controls and improve the governing
                   council’s oversight of the financial administration of the institute. We further
                   recommended that NSF release additional funds to the institute only after verifying
                   that internal controls are adequate to safeguard NSF funds. Finally, we recommended
                   that NSF clarify in writing the responsibilities of the U.S. member organization,
                   enhance associated communications, and develop improved administrative procedures
                   to handle future grants for membership contribution.

                          The institute has begun taking steps to improve its internal controls and oversight
                   by its governing council. NSF agreed with all recommendations, but the program
                   office disagreed with our characterization of the funding as a “membership
                   contribution” if that implied that continued funding would not be based on scientific
                   quality as determined by a peer review. Therefore, future NSF funding for this
                   institute is under review.



                   Education Related Audits
                        NSF makes awards in all areas of science, mathematics, and engineering. Many
                   education programs in these areas are funded through NSF’s Directorate for Education
                   and Human Resources (EHR). For FY 2000, EHR Directorate’s obligations for
                   awards amounted to $683.5 million, or 17 percent of NSF’s $3.9 billion total funding
                   for awards. With the amount of individual awards
                   often exceeding $500,000, much larger than the
                   NSF average, we consider EHR awards to be
                   inherently riskier than other NSF awards.

                         In addition, many of the awardees include
                   school districts, small colleges and universities,
                   for-profit entities, and non-profit organizations
                   that have limited experience with NSF and the
                   administrative and accounting requirements
                   associated with its awards. In past audits of EHR
                   awards, we have found that awardees experience
                   problems with accounting for NSF funds in
                   accordance with award and federal requirements.
                   We believe our continued audit work serves to
                   help awardees obtain a better understanding of
                   the award requirements, while also providing a
                   valuable tool to NSF in evaluating how to             William Harrison, OIG audit manager,
                   effectively manage these high risk awardees.          was recognized by the ECIE with an
                                                                                Award for Excellence



            8
                                                                OIG Semiannual Report September 2001




      During this semiannual period, we completed five audits of EHR award
recipients, involving $18.7 million in costs claimed over a five-year period. Three of
the five audits disclosed questioned costs totaling over $3.9 million. For each of the
five awardees, we found instances of material non-compliance and internal control
weaknesses. Our findings suggest that it would be beneficial for NSF to develop
procedures for identifying high risk awardees and ensuring that they comply with
federal requirements and implement appropriate internal control systems. For
awardees deemed to be high risk, the procedures might include: conducting a more
rigorous analysis of awardees’ systems prior to the start of an award; providing more
detailed instruction to high risk awardees; and monitoring award activity more closely
to assure financial and administrative compliance.

      In each audit, we made recommendations to the awardees for improving their
compliance with NSF and federal requirements and strengthening their internal control
systems. A summary of the results of each of these audits is provided below. In
addition, we have included a summary of three EHR awardee audits described in the
last semiannual report that NSF management resolved during this semiannual period.



A Northeastern Local School District Did Not Provide
Documentation For $2.9 Million of Claimed Costs

     We conducted a financial and compliance audit of $8.9 million in costs claimed
by a northeastern local school district. The school district received an EHR award
of $10.4 million to stimulate improvement in the quality of science and mathematics
education in grades K-12. Of the amount claimed, we questioned a total of
$3,336,687.

      We questioned $2,936,594 because the school district did not provide
documentation to support costs claimed for the first two years of the award period.
We also questioned $35,277 claimed for severance pay and $364,816 budgeted for
participant support costs but expended for other purposes without NSF’s prior
approval. We recommended that the questioned costs be returned to NSF.

      We also identified an instance of material non-compliance with federal
regulations. We found that employees of the school district did not complete time
sheets or sign semi-annual certifications to support salary and wage costs charged to
the NSF award as required by federal regulations. Salary and wage costs represented
$3.7 million or 40.9 percent of total costs claimed under this award. Because the
employees were not required to complete time sheets or sign labor effort certifications,
NSF had no assurance that salary and wage costs charged to NSF were for work
related to the award. We did not question the related salary and wage costs because
we determined that the charges appeared appropriate based on interviews with the


                                                                                           9
Audits & Reviews




                   school district’s project director and employees, and a review of the award
                   documentation. Nevertheless, we recommended that the awardee amend its policies
                   and procedures to ensure that documentation for salary and wage costs is maintained
                   to provide clear evidence that NSF funds are being used for the purposes intended
                   under the award.

                        The school district disagreed with many of our findings, and we have sent our
                   report to NSF’s Division of Contracts, Policy and Oversight for resolution.



                   Increased Controls Needed at a Southern State University

                         We reviewed $2.6 million of costs claimed by a southern state university that
                   received three EHR awards. The awards provided funding to the university to (a)
                   participate in an alliance to encourage underrepresented students to select careers in
                   science, engineering, and mathematics, (b) establish a research center with another
                   southern state university for the purpose of integrating education with research in
                   the areas of science, mathematics, engineering, and technology, and (c) participate in
                   a state-wide initiative to improve the preparation of future K-12 teachers. The awardee
                   promised to contribute a total of over $15 million in cost sharing on its three NSF
                   awards. We questioned $387,471 of total costs claimed.

                        We found that the awardee overpaid $363,560 to one of its subcontractors on
                   an NSF award. In later accounting periods, the awardee recovered its overpayment
                   to the subcontractor and reduced the related claim to NSF.

                         We noted several instances of material non-compliance with NSF award and
                   federal regulations. The awardee did not use award funds as required by NSF to
                   interact with other NSF-funded centers and in NSF specified percentages on targeted
                   disciplines. The awardee’s noncompliance with these specific award requirements
                   could impact NSF’s attainment of overall program objectives. It also could impact
                   the awardee’s ability to complete the NSF project consistent with the award objectives.
                   We recommended that the awardee establish policies and procedures to ensure that
                   NSF funds are expended in conformance with award agreements.

                         Also, the awardee did not have a system for readily identifying cost sharing on
                   its awards and did not submit cost-sharing certifications as required by NSF. This
                   diminishes NSF’s ability to monitor the awardee’s cost sharing on the awards and the
                   awardee’s progress in meeting project objectives. It could also impact the awardee’s
                   ability to adequately support cost sharing at the completion of these projects. We
                   recommended that the awardee strengthen its current policies and procedures to
                   ensure adequate systems are in place for supporting cost sharing and submitting
                   required cost sharing certification.


          10
                                                                OIG Semiannual Report September 2001




      Additionally, the awardee did not provide documentation to show after-the-
fact confirmation of work performed for employee time charged to the awards as
required by federal regulations.

    The university agreed with some of our findings. We have forwarded the report
to NSF’s Division of Contracts, Policy, and Oversight for resolution.



Northeast Nonprofit Entity Claimed $206,503 Provided by
Another Funding Source

     We audited a $2.5 million EHR award issued to a northeastern nonprofit entity
to conduct workshops and provide teaching materials for teachers in three rural sites
in Mississippi, Massachusetts, and New York. The overall project objective was to
increase the proportion of students who complete algebra successfully in late middle
school or high school and who enter college preparatory mathematics studies.

      Of the $2,008,087 costs claimed by the entity, we questioned costs totaling
$215,788. Consultant and participant support costs of $206,503 were questioned
because these costs had been funded by another funding source. We also questioned
$9,285 of consultant costs, which either exceeded the daily maximum rate allowed or
could not be supported with appropriate documentation. We identified areas for
improvement to ensure the entity’s compliance with NSF and federal regulations. We
also recommended that the questioned costs be returned to NSF.

      We identified three material weaknesses in the entity’s internal control structure
that place NSF funds at risk: 1) the awardee’s accounting system did not account for
costs by source and the application of award funds; 2) the invoice authorization
forms used by the awardee were not properly reviewed or approved prior to the
expenditure of funds; 3) the subcontract agreements of the awardee did not include
the clauses required by federal regulation. We recommended that the awardee improve
its internal controls in these areas to ensure that expenditures are appropriately
authorized and charged to the appropriate funding source and that federal
requirements are complied with.

    The awardee agreed with many of our findings. We have forwarded our report
to NSF’s Division of Contracts, Policy, and Oversight.




                                                                                           11
Audits & Reviews




                   Midwestern Museum’s Accounting System Did Not Identify
                   Costs Charged to Awards

                        A midwestern museum received four EHR awards to foster awareness of science
                   through exhibits, films, and web sites. The museum, a combination of a science
                   center and a natural history museum, is dedicated to providing science-learning
                   opportunities in the museum and to the science community at large.

                         Of the $3.3 million in claimed costs and $6.7 million claimed for cost sharing,
                   we did not identify any questioned costs. However, we found that the museum’s
                   accounting system did not distinguish between direct award and cost-sharing costs in
                   accordance with Federal requirements which require that costs be specifically identified
                   with a funding source. When direct award costs are commingled with cost sharing,
                   certain costs which are only allowable as cost sharing could be charged to the NSF
                   award as direct costs and go undetected. In addition, commingled funds make it
                   difficult to determine whether the awardee has met its proportionate share of the
                   project costs. Accordingly, we recommended that the museum track cost sharing
                   separately from NSF direct award costs. The museum disagreed with the finding
                   because it believed that modifying its accounting procedures to record cost by funding
                   source would not be cost effective.

                         We also noted that there were conflicting provisions in the award documents
                   for reimbursing indirect costs. Inconsistencies or unclear provisions in awards for
                   reimbursement of indirect costs can lead to misunderstandings between NSF and
                   award recipients and result in questioned indirect costs. We recommended that NSF’s
                   Division of Grants and Agreements ensure that grant officials review proposal award
                   budgets and indirect cost rates with their applicable direct cost bases to ensure
                   mathematical accuracy and consistency with provisions in award letters and negotiated
                   rate agreements.

                       We have forwarded the report to NSF’s Division of Contracts, Policy, and
                   Oversight for audit resolution.



                   Northeastern Museum Needs To Improve Documentation to
                   Support Labor and Fringe Benefit Costs

                         We conducted an audit of two NSF awards issued to a northeastern museum
                   dedicated to education, conservation and research of water. Through exhibits of
                   aquatic life, the museum expands public understanding, appreciation, and stewardship
                   of the marine environment. The EHR made awards to develop traveling exhibits
                   related to acoustic oceanography, and scientific and environmental issues facing Lake
                   Victoria and North American fisheries.

          12
                                                                 OIG Semiannual Report September 2001




      Our audit did not question any of the $1.9 million in total direct award costs or
$1.2 million of cost sharing claimed by the museum. However, we found that the
museum did not complete the required time and effort reports to support $709,991
in claimed labor and related fringe benefit costs. Instead, the museum allocated
labor costs of salaried employees to the awards based on budgeted percentages or a
flat amount allocated for each employee assigned to the NSF projects. We were
satisfied that the budgeted and fixed labor allocations approximated actual labor
costs incurred based on interviews with the employees whose salaries were charged
to the awards. Nevertheless, we recommended that NSF management ensure that
the museum establish a system to properly document labor costs charged to NSF-
funded projects as well as other activities in a manner to comply with federal
requirements. This documentation is important to ensure that charges to NSF for
salaries and related expenses are appropriate.

      During the audit resolution process, the museum affirmed to NSF that it had
developed new timecards, established new procedures to record time worked on
projects, and trained its employees to properly implement these procedures. As a
result, the museum can record actual time worked to support labor costs and the
related fringe benefit costs assigned to all museum activities, including federally funded
projects.



Audit Resolutions of Education Awards

NSF Recovers $421,852 from a Northwest Tribal Federation

      In our March 2001 Semiannual Report (p. 15), we reported the results of an audit
of a northwest tribal federation that received an NSF Rural Systemic Initiative award to
improve the scientific and mathematical literacy of students. We questioned $421,852
or 4.7 percent of the $8.9 million in claimed costs as unallowable and unsupported.
Specifically, we questioned $264,830 because the federation charged salaries and related
fringe benefits to the award based on budgeted amounts rather than on actual and
documented payroll costs and $88,505 because the federation claimed amounts in
excess of actual incurred costs. We identified an additional $54,442 of questioned
costs because travel, materials and supplies, and subaward costs were either not related
to the award or not adequately supported by source documentation. In addition, we
found $14,075 in interest income earned on NSF advanced funds that the federation
should have returned to the U.S. Department of Health and Human Services (DHHS).

     As a result of the audit resolution process, NSF sustained the full $421,852 of
costs questioned in the audit report. The federation agreed to adjust or offset unbilled
NSF award costs for the sustained amount. In addition, the federation agreed to
remit the $14,075 in interest income to the DHHS and has assured NSF that actual

                                                                                             13
Audits & Reviews




                   and not budgeted payroll costs will be used to determine claimed costs for future
                   NSF awards. Also, it was reported that an additional $3,632 in interest income was
                   remitted to DHHS by the Federation, as a result of its improved internal controls.



                   Eastern Non-Profit Consortium Agrees to Repay $84,576

                         In our March 2001 Semiannual Report (pp. 13-14), we reported on an audit of an
                   eastern non-profit consortium that received a $4.3 million award to enhance teaching.
                   Of almost $3.1 million in costs claimed by the consortium, we questioned $84,576
                   primarily due to improper salary and fringe benefits charged to the award and claimed
                   costs not reflected in the accounting records.

                        NSF sustained the full $84,576 of questioned costs. The consortium agreed to
                   adjust its accounting records to reflect the questioned costs, and take action to address
                   the underlying compliance issues and internal control weaknesses identified in the
                   audit report.



                   Midwestern School District Agrees to Document Labor and
                   Participant Stipend Costs

                        In our March 2001 Semiannual Report (pp. 14-15), we reported on an NSF
                   cooperative agreement to assist a Midwestern school district in reforming its K-12
                   mathematics and science education programs. Of the $11 million in costs claimed
                   by the school district, our audit did not identify any questioned costs. However, we
                   found that the school district was not in full compliance with federal cost principles
                   because it did not have completed time sheets or signed certifications to support
                   labor and participant stipend costs charged to the cooperative agreement.

                         During the audit resolution process, the school district assured NSF that it had
                   instituted new procedures that require supporting documentation for all salary and
                   related expenditures charged to individual awards. NSF required the school district
                   to ensure that changes made as a result of these new procedures comply with federal
                   requirements.



                   Contract Related Audits
                         In our fiscal year 2001 audit plan, we identified procurement as an area of
                   strategic focus. While the majority of NSF’s awards are either grants or cooperative



          14
                                                               OIG Semiannual Report September 2001




agreements, the role of procurement is not insignificant. In FY 2000, NSF procured
$336.9 million in goods and services, which represents 8.5 percent of NSF’s FY 2000
budget authority. During this period, we completed several contract audits requested
by the NSF Office of Contracts, Policy and Oversight to determine whether costs
claimed were reasonable, allocable, and allowable.

     Our audits of five contractors identified over $1.2 million of questioned costs,
4.6 percent of the $25.7 million claimed by the contractors over a seven-year period.
The majority of the questioned costs related to indirect and consultant costs. Four
of the five contractors claimed indirect costs of $594,677 that exceeded the amounts
allowable based on negotiated or audited rates. Two contractors claimed $293,077
of consultant costs that exceeded the maximum allowable amounts.

      We further identified an additional $1.4 million of costs claimed by three
contractors as unresolved costs, which are costs for which we could not make a
determination as to their reasonableness, allowability, and allocability at the time of
our audit. We classified the $1.4 million as unresolved costs because actual indirect
cost rates or other standard billing rates for certain years had not been determined by
the cognizant federal agency at the time of our audit. Therefore, we could not
determine whether the three contractors had over-billed NSF for indirect and other
costs for those years.

     We also found that some contractors needed to improve their compliance with
NSF award conditions and federal regulations and strengthen internal controls.
Specifically, we found that three of the five contractors had instances of material
non-compliance with federal regulations and internal control weaknesses.

     The complex nature of government procurement in general suggests that it is
an administrative risk for the agency. The results of our current contract audits and
the three audits we completed during the last semiannual period indicate that NSF
needs to maintain a continuing focus on overseeing its contract awards.

     A summary of the results of each of the five contract audits is provided below.
In addition, we have included a summary of two contract audits that we reported on
in our last semiannual report that NSF management resolved during this semiannual
period.



Mid-Atlantic For-Profit Contractor Has $187,278 of
Questioned Costs and Material Deficiencies

     At the request of the NSF Division of Contracts, Policy and Oversight, we
audited 10 task orders of a $6.2 million NSF contract issued to a mid-atlantic for-


                                                                                          15
Audits & Reviews




                   profit company, which provided support services to various NSF programs and
                   divisions. Of the $2.1 million total costs claimed under these task orders, we
                   questioned $187,278 consisting of the following: $60,127 for unaccounted for
                   equipment and software; $30,548 for temporary staff, printing, and training costs
                   which were not authorized by the task orders; $41,802 for unsupported costs; $4,907
                   for consultant and travel costs in excess of federal maximum rates; and, $49,894 for
                   indirect costs, including $24,639 for fringe benefits and indirect costs that were in
                   excess of allowable amounts and $25,255 for general and administrative costs related
                   to the questioned direct costs.

                         We believe material weaknesses in the contractor’s controls for administering its
                   NSF awards and ensuring compliance with federal regulation contributed to the
                   questioned cost findings. In general, we found a lack of overall contract management
                   and compliance with contract reporting requirements. Specifically, we found that the
                   contractor: failed to obtain written modifications for task order changes; billed NSF
                   for amounts that were not reported in the general ledger; did not reconcile its accounts
                   receivable history with vouchers it submitted to NSF for payment; did not completely
                   document its voucher file; did not maintain records identifying all government-
                   acquired equipment and software purchased under the task orders and therefore
                   could not support the physical existence of assets; and failed to maintain adequate
                   accounting records to support the costs claimed for proposal processing. Without
                   good contractor management controls, NSF has limited assurances that it is getting
                   the goods and services it contracts for and that it is not paying costs that are unallowable
                   based on the contract provisions.

                        In addition to the questioned costs, we found that actual costs incurred on nine
                   of the ten task orders exceeded budgeted amounts by $122,713. Although these
                   costs were not charged to the NSF contract, it is in the best interest of the contractor,
                   as a for-profit entity, to have adequate systems to prevent the occurrence of such
                   cost overruns.

                        The contractor did not agree with many of our findings. We made specific
                   recommendations to NSF requiring the contractor to address each of the questioned
                   cost items, instances of non-compliance, and internal control weaknesses. We
                   forwarded this report to NSF’s Division of Contracts, Policy and Oversight for
                   resolution.



                   Mid-Atlantic Education-Consulting
                   Firm Claimed $677,556 of Questioned Costs

                        We audited three NSF contracts awarded to a mid-Atlantic education-consulting
                   firm that provides technical assistance and consultation to school systems, education


          16
                                                                OIG Semiannual Report September 2001




associations, governmental agencies, and institutions of higher education. The
contracts provided technical assistance to institutions in planning and implementing
NSF’s Model Institutions for Excellence program and technical support related to
the rural and urban systemic initiatives funded by NSF’s Directorate for Education
and Human Resources.

      The contractor claimed direct costs and fees totaling $6,403,808, of which we
questioned 11 percent or $677,556. Included in the questioned costs were claimed
indirect costs of $305,208 in excess of the actual allowable incurred costs, consultant
costs of $276,926 that were not approved by NSF’s Contracting Officer, and labor
costs of $41,741 that were not based on actual hourly rates. We also found that the
contractor claimed other direct costs of $5,905 that were not supported by its
accounting records.

      We attributed most of these questioned costs to material deficiencies in the
contractor’s procedures for administering its NSF awards. The contractor failed to
submit proposed final indirect cost rates to NSF for fiscal years 1994, 1996, 1997,
and 1998 as required by federal regulations and the contract provisions. In addition,
the contractor lacked adequate procedures to ensure that unallowable indirect expenses
are not included in its indirect cost rate charges. As a result, our review of the
contractor’s pools of indirect costs for those four fiscal years identified numerous
unallowable costs in the pools. After eliminating the unallowable costs from the pools
and calculating the actual indirect cost rates, we found that the contractor had claimed
$305,208 in excess indirect costs. We also classified $191,484 of costs claimed under
one contract as unresolved, because at the time of our audit the contractor had not
submitted its FY 1999 proposed indirect cost rates to NSF and was unable to make
the indirect cost data available for our review.

     The contractor lacked procedures for preparing invoices directly from its
accounting system, resulting in it claiming $5,905 of other direct costs that could not
be traced to its accounting records. The contractor also did not have adequate
timekeeping procedures in place. Timesheets sometimes lacked the appropriate
authorizing signatures and changes were not initialed. Although this deficiency did
not result in questioned costs, sound internal controls dictate that timesheets be
properly signed and changes initialed given the significant labor effort amounts claimed
under its contracts.

     We recommended that NSF direct the contractor to submit its proposed indirect
cost rates for FY 1999 and future years, and limit claimed costs to costs allowable
under the federal regulations and the contracts’ provisions. We also recommended
that NSF direct the contractor to institute policies and procedures to identify
unallowable indirect costs in the accounting system, prepare invoices directly from
the accounting system, and require employees and supervisors to sign all timesheets
and initial all timesheet changes.


                                                                                           17
Audits & Reviews




                        The contractor disagreed with some of our findings. We have forwarded this
                   report to NSF’s Division of Contracts, Policy, and Oversight for resolution.



                   Midwestern For-Profit Contractor Claims Excessive
                   Indirect Costs

                         We audited three NSF contracts issued to a midwestern for-profit corporation
                   to conduct surveys of scientific and engineering research facilities for NSF’s Division
                   of Science Resources Studies. Of $3.3 million in costs claimed under the contracts,
                   we questioned $337,589 or approximately ten percent of the audited costs. We
                   found a material instance of noncompliance with federal regulations and material
                   deficiencies in the contractor’s internal control structure to have caused the questioned
                   costs: the contractor did not maintain invoices and other detailed receipts to adequately
                   explain and support expenses in its indirect cost pools for such costs as accounting,
                   consulting, meals, entertainment, and lodging expenses as required by federal
                   regulations. Consequently, we eliminated $357,673 of unsupported expenses from
                   indirect cost pools, which had the effect of reducing the indirect cost rates. These
                   lower indirect cost rates, coupled with our finding that the contractor also claimed
                   costs using rates which exceeded the maximum indirect cost rates allowed in the
                   contracts, resulted in questioned indirect costs and related fixed fees of $279,942.

                        We also found that the contractor’s accounting system did not record all costs
                   that were applicable to the NSF contracts and that the amount of costs recorded did
                   not always agree with costs reported to NSF. In addition, the contractor did not
                   monitor subcontract costs to ensure that award limits were not exceeded and did not
                   require detailed receipts and invoices prior to the payment of expenses. As a result
                   of these deficiencies in internal controls, we questioned $51,849 in costs claimed for
                   labor, subcontract, other, and related indirect costs in excess of actual costs recorded
                   in the accounting records. Also, $5,798 of subcontract and related indirect costs
                   were questioned because the costs exceeded the amount of the subcontract award.

                         We recommended that NSF require the contractor to: (1) return $337,589 of
                   questioned costs, (2) review expenditures included in the indirect cost pools for
                   allowability under federal regulations, (3) institute a procedure to maintain required
                   detailed receipts and invoices to support costs incurred, and (4) exercise greater care
                   in the recording, reporting, and reconciling costs related to NSF contracts, which
                   includes tracking subcontract costs so that award amounts are not exceeded.

                        The contractor agreed with most of our findings and recommendations. We
                   have forwarded this report to NSF’s Division of Contracts, Policy, and Oversight for
                   audit resolution.



          18
                                                                 OIG Semiannual Report September 2001




Mid-Atlantic Contractor Had $862,318 of Unresolved Costs

      We conducted an audit of a three-year NSF contract awarded in 1996 to a mid-
atlantic employee-owned research firm. The contractor provided technical assistance
and communications support to several program offices in NSF’s Directorate for
Education and Human Resources.

      Of the $8.4 million costs claimed by the contractor, we classified $611,460 of
indirect costs and $250,858 of computing and copying charges as unresolved costs.
We found at the time of our audit that the contractor’s cognizant federal audit agency,
Defense Contract Audit Agency (DCAA), had not negotiated either final indirect
cost rates for fiscal years 1997 through 1999 or standard billing rates for computing
and copying charges for fiscal years 1996 through 1999.

     We also questioned $22,240 of costs claimed by the contractor which were
unallowable based on applicable federal cost principles; $15,267 of indirect costs
claimed which were in excess of allowable amounts; $608 of direct costs claimed for
alcohol and bartender services; and, $6,365 of direct costs claimed by the contractor
for unallowable subcontract costs.

    We referred the audit findings to NSF’s Division of Contracts, Policy, and
Oversight for resolution.



Mid-Atlantic Contractor Did Not Comply With Federal
Regulations

       We conducted an audit of two contracts awarded to a mid-atlantic firm – the
first to operate NSF’s central computer facility, and the second to provide software
support, system management and administration, and user support for NSF’s
electronic mail and UNIX operating systems. We examined $5.4 million of costs
claimed under these two contracts. We also audited the indirect cost rates for the
NSF contracts for fiscal years 1993, 1994, and 1996.

     We found that the contractor’s cognizant federal agency, DCAA, had not yet
negotiated the contractor’s final indirect cost rates for fiscal years 1998 through 2000.
As a result, we reported $418,588 of claimed indirect costs for those years as
unresolved costs.

      We questioned $4,774 claimed for consultant costs because the contractor did
not provide supporting documentation. We recommended that NSF disallow these
costs. We also recommended that NSF ensure that the contractor has appropriate



                                                                                            19
Audits & Reviews




                   policies and procedures for accounting for costs and that it maintains adequate
                   documentation to support claimed costs.

                        The contractor did not respond to our findings. We have forwarded these
                   matters to NSF’s Division of Contracts, Policy, and Oversight for resolution.



                   Audit Resolutions of Contract Awards
                   An Eastern For-Profit Corporation Must Repay NSF $5,382

                         In our March 2001 Semiannual Report (pp. 18-19), we reported the results of an
                   audit of two contracts awarded to an eastern for-profit corporation to conduct data
                   processing services and database maintenance for NSF. Out of a total of $2.9 million
                   costs claimed by the contractor, we questioned $54,478. The questioned costs included
                   $40,791 in direct labor and related indirect costs, $8,603 of other costs claimed for
                   which the contractor could not provide supporting documentation and $5,084 in
                   claimed general and administrative costs which were in excess of the contractor’s
                   actual costs. To improve its compliance with the provisions of federal contract
                   awards and internal controls, we recommended that the contractor improve its
                   accounting and internal controls related to classifying and recording costs in correct
                   expense categories.

                         In resolution of the reported $54,478 questioned cost findings, NSF allowed
                   $49,096 and sustained only $5,382 of questioned costs. NSF allowed $40,791 in
                   direct labor and related indirect costs based on an affidavit signed by the company’s
                   president affirming the correctness of the labor charges that the contractor was
                   unable to support with adequate payroll documentation. NSF also allowed $7,004 of
                   the $8,603 other direct costs questioned based on supporting documentation provided
                   by the contractor during the audit resolution process, but sustained the remaining
                   $1,301 which was not supported by adequate documentation. Of the $5,084 excess
                   general and administrative claimed by the contractor, the contractor provided closeout
                   invoices supporting only $1,301 of the questioned amount and therefore the remaining
                   $3,783 was sustained.

                        NSF indicated that the few isolated cases of misclassified costs in reporting
                   expenses did not indicate systemic problems in the contractor’s internal controls as
                   we had determined.




          20
                                                                 OIG Semiannual Report September 2001




NSF Software Support Service Contractor Addressed Audit
Findings

      In our March 2001 Semiannual Report (pp. 17-18), we reported the results of an
audit on three task orders issued to a midwestern for-profit corporation that provided
for systems development and computer support services to NSF. Of $8.2 million in
claimed costs, we questioned $14,242 because the contractor was not able to provide
supporting documentation for labor costs charged to NSF. In addition, we reported
that the contractor did not submit to DCAA indirect cost rate proposals for fiscal
years 1997 through 2000. These audits and negotiations of the indirect cost rate
proposals by DCAA could change the approximately $2 million of indirect costs
that the contractor claimed on the NSF task orders. Accordingly, we recommended
that the contractor submit indirect cost rate proposals to DCAA for audit and
negotiation and adjust its claims to NSF if the actual rates are less than the provisional
rates the contractor used to bill indirect costs to the task orders.

      During NSF’s resolution of the audit findings, the contractor located and
provided to NSF the missing time records to support $14,242 of the questioned
labor costs. Also, it was determined that DCAA was not negotiating indirect cost
rates for the contractor’s location where the NSF work was being performed since
NSF was the only federally funded activity at this location. Therefore, at NSF’s
request the contractor submitted its indirect cost proposals for fiscal years 1997 to
2000 to the NSF Cost Analysis and Audit Resolution Branch for its review and
negotiation of final indirect cost rates. Upon completion of NSF’s negotiation of
final indirect cost rates, any indirect costs charged to the contract in excess of the
amount determined to be allowable will be collected from the contractor.



Cost Sharing
Audits Find Recurring Internal Control Weaknesses In
Accounting for and Reporting on Cost Sharing

      In our March 2001 Semiannual Report, we identified cost-sharing as one of
NSF’s top ten management challenges for NSF (p. 5), and discussed our continuing
efforts to monitor awardees’ ability to meet their cost-sharing requirements (pp. 7-
10). During this reporting period, we completed, or NSF resolved, additional audits
at seven institutions involving $12.9 million in cost sharing. We also completed an
audit of an Engineering Research Center (ERC) in which we found that the Center
claimed $9.9 million of cash and in-kind support from industry sources. Although
the contributions to the Center did not meet the technical definition of cost-sharing,
they raised some of the same accounting, monitoring, and reporting issues.

                                                                                             21
Audits & Reviews




                            The audits of cost sharing at the seven institutions again identified recurring
                      cost-sharing, compliance, and internal control weaknesses. At three of the institutions
                      that promised to provide $4,239,560 million in cost-sharing, the accounting system
                      did not identify cost-sharing contributions. In addition, six of the institutions,
                      representing $11 million in cost sharing obligations, lacked written policies and
                      procedures for certifications, did not submit annual cost-sharing certifications required
                      by NSF, and/or based the certifications on budgeted rather than actual, amounts.
                      Two institutions lacked procedures for valuing in-kind cost sharing or claimed costs
                      that were not allowable. Finally, at three institutions some or all of NSF research and
                      development (R&D) awards were not audited in an annual federal audit, required
                      under the Single Audit Act (the OMB Circular A-133 Audit) in part because awardees
                      had not identified the NSF awards as R&D awards.


                                   Common Cost Sharing Problems in Seven Audits

                                               Accounting                                             NSF Awards
                                               System Did                                 Valuation Not in Federal
                                 Promised                              Cost-Sharing       of In-Kind
                   Awardee         Cost        Not Identify Questioned Certification                     R&D
                                              Cost-Sharing    Costs                      Cost-Sharing Cluster For
                                  Sharing                               Problems             Issue
                                              Contributions                                           A-133 Audit

                   University   $5,532,778                        X             X                           X
                   Foundation
                   University     2,532,580         X             X             X                           X
                   Foundation

                   University     1,902,040                       X

                   State          1,134,648         X                          X
                   government

                   University     1,124,379                       X             X              X

                   University       572,332         X             X            X

                   University       112,141                                    X               X            X
                   Foundation
                   Total        $12,910,898         3             5            6               2            3




                            Since cost-sharing often represents significant contributions to awards, the failure
                      to keep proper accounts can have serious consequences. In these cases, the lack of
                      identification of cost-sharing contributions in the accounting system, which is required
                      by federal and NSF guidelines, impeded the institution’s ability to ensure that it was
                      meeting its cost-sharing obligation, and decreased NSF’s ability to monitor claimed


          22
                                                                  OIG Semiannual Report September 2001




cost-sharing. The failure to certify actual cost-sharing expenses in annual progress
reports, as required by NSF, meant that NSF did not know the actual amount of
cost-sharing that had been provided and could not administer those awards effectively.
Finally, the exclusion of NSF’s awards from the federal R&D cluster in federal audits
(the A-133 audits) meant that NSF’s affected awards were less likely to be audited. It
also indicated that NSF could not rely on the A-133 audits, which are intended to
obviate the need for individual agencies to audit award recipients separately, for relevant
and reliable information about cost-sharing problems on NSF awards.

      These problems not only undermine NSF’s ability to oversee an award, but to
the extent that NSF overpays its share of funding because of inaccurate accounting,
opportunities for the agency to fund other awards are curtailed. For example, valuation
of in-kind cost-sharing that is not consistent with federal cost principles and results
in disallowed cost-sharing, overstates the actual amount of cost-sharing provided by
the awardee and understates NSF’s percentage contribution to the award. In such
cases, the agency pays more than its fair share for research. Ultimately, this represents
an opportunity cost to NSF since the money could have been used to fund more
awards.

      Based on the findings contained in the seven audits, we recommended that
awardees improve their internal controls for valuing, recording, documenting, and
monitoring cost-sharing to ensure that any future contributions comply with award
terms and conditions. In addition, we recommended that award recipients establish
written policies and procedures for submitting annual and final cost-sharing
certifications to NSF. We also recommended that award recipients correctly identify
any NSF R&D award so that its chances of being audited as part of a federal R&D
cluster are improved.

     In our next semiannual reporting period, we plan to complete audits of cost
sharing at six more institutions. We anticipate also preparing a summary of the
overall results of those cost sharing reviews as a basis to assess the implications for
NSF’s cost-sharing policies. In addition, we plan to include an evaluation of cost
sharing, as applicable, in all of our future audits of grantee institutions.



Cost-Sharing at Three Campuses in a Western University
System Reveal Internal Control and Compliance Findings

     As we noted in our March 2001 Semiannual Report (p. 8), we initiated an overall
survey at the university level, and individual audits of cost sharing at several campuses
of a western state university. We discuss below the results of three of the five cost-
sharing audits we completed during this reporting period at campuses in this university
system.


                                                                                              23
Audits & Reviews




                         The university’s foundation at one campus met its $112,141 cost-sharing
                   obligation, but needed to update its cost-sharing policies and procedures to comply
                   with federal requirements. Given its limited federal awards, the Foundation believed
                   that its cost-sharing policies and procedures were adequate. However, anticipating
                   an increase in federal awards, it recognized a need to improve its policies and
                   procedures. We also found that, contrary to NSF requirements, the foundation
                   delegated responsibility for monitoring awards to Principal Investigators, who did
                   not always have the time or knowledge of the complicated management and
                   accounting requirements for federal grants. As a result NSF had less assurance that
                   its awards were being administered in accordance with grant conditions. We
                   recommended that the university foundation update its cost-sharing policies and
                   procedures, and assume primary responsibility for monitoring all federal awards. The
                   foundation agreed with our recommendations.

                         At the second campus, NSF provided $1.3 million for the second phase of a
                   high-performance network and required the campus to provide $2.5 million of cost
                   sharing. We questioned $1,264,361 of that cost-sharing because the campus incurred
                   $1,132,446 after the expiration date of the award and could not provide time and
                   effort reports in compliance with federal requirements to support $131,915 in claimed
                   faculty release time. As a result of these unallowable and unsupported cost-sharing
                   expenses, we recommended the campus reimburse NSF $90,602, for the amount of
                   funds NSF contributed to the project above its pro-rata share. We also found
                   weaknesses in the campus’s systems for monitoring, tracking, and accounting for its
                   cost-sharing obligation. Specifically, because of a misunderstanding of federal cost-
                   sharing requirements, the campus did not segregate NSF-funded costs from cost-
                   sharing or non-federal costs and, therefore, could not easily or readily determine the
                   actual amount of cost-sharing it had or needed to provide under the award agreement.

                         The second campus also did not monitor cost sharing promised by three other
                   campuses, because it believed that cost sharing provided by other sources would be
                   sufficient to meets its obligation. As a result, one campus did not provide any support
                   for promised cost sharing, which potentially impacted the scope of work that NSF
                   intended with this award. In addition, the campus was unaware of NSF’s requirements
                   to provide final cost-sharing reports, certified by the authorizing official. Consequently,
                   NSF did not know that there was a cost-sharing shortfall. We recommended that
                   prior to any new award, NSF should ensure that the campus establishes written
                   policies and procedures for its financial accounting system, monitoring of
                   subrecipients, and for submitting annual and final cost-sharing certifications to NSF.
                   The campus agreed with some but not all of our findings, and we have forwarded
                   these matters to NSF’s Division of Contracts, Policy and Oversight for resolution.

                        At a third campus NSF funded 32 awards totaling $11.3 million and required
                   the campus provide $5.5 million of cost sharing. We questioned $6,759 of cost
                   sharing on four awards because the institution incurred the cost sharing after the


          24
                                                                 OIG Semiannual Report September 2001




award’s expiration date without obtaining the required no-cost extension from NSF.
Also, while the university foundation did submit annual reports to NSF, the
information in the reports was either incomplete or not certified by the institution’s
authorizing official. Without this information, NSF could not determine whether
the institution was making satisfactory progress in meeting its cost-sharing obligations.
We recommended that the institution monitor required cost-sharing under its NSF
awards, immediately notify NSF of any shortfalls, and certify actual cost-sharing
expenditures annually to NSF. The foundation concurred with these
recommendations. We have forwarded the audit report to NSF’s Division of
Contracts, Policy and Oversight for resolution.



Cost-Sharing Audits at Four Geographically Diverse
Colleges and Universities Indicate Procedural and Policy
Weaknesses

     We stated in the March 2001 Semiannual Report that in order to assess the risk of
cost-sharing nationwide, we had selected for audit eight educational institutions that
varied in size, were geographically diverse, and had received NSF awards requiring
cost sharing of $500,000 or more. We reported on two of those audits in that
semiannual report (p. 9), and can now report on two more.

     NSF funded two awards totaling $1.2 million to a large southern university,
which promised $1.1 million of cost-sharing. The university is meeting its cost-
sharing commitment, although it claimed $17,029 of unallowable cost-sharing costs.
We also found that the university did not comply with NSF requirements to certify
annually cost-sharing amounts greater than $500,000, because its staff was unaware
of the requirement or did not receive information in time to submit the certifications.
We recommended that the university strengthen its policies and procedures to ensure
that all awards requiring cost-sharing certifications are identified, that required cost-
sharing certifications are submitted to NSF, and that only allowable costs are claimed.
The university agreed with these recommendations.

      In the second cost-sharing audit of another large university, NSF awarded $3.1
million for three awards and required $1.9 million of promised cost-sharing. We
found that the university is meeting its cost-sharing commitment on two of the three
awards. However, while the university had an adequate system of controls for
accounting for and reporting on cost-sharing obligations, we identified two areas
needing improvement. First, the university did not adequately oversee or review
cost-sharing information provided by the department level staff. As a result, one of
the departments claimed cost-sharing expenditures of $442,895 which included
unallowable labor and other direct costs of $331,329.



                                                                                            25
Audits & Reviews




                         We also found that the university purged supporting cost-sharing documentation
                   for one award before the end of the required retention period. As a result, it is
                   difficult to ensure that the award funds were being consumed at a rate commensurate
                   with the accomplishment of programmatic goals of the award. We recommended
                   that NSF direct the university to improve its procedures for monitoring department-
                   level grant administration to ensure that cost-sharing expenses are supported and in
                   accordance with federal cost principles, and to revise its record retention policies to
                   ensure that the university maintains original source documentation in compliance
                   with federal and NSF requirements. The university did not respond to these
                   recommendations, and we have forwarded the audit report to NSF’s Division of
                   Contracts, Policy and Oversight for resolution.



                   Resolution of Two Cost-Sharing Audits

                        During this reporting period NSF management resolved two audits involving
                   cost sharing reported in our March 2001 Semiannual Report (p. 9). In the first audit, at
                   a western state college, we identified $603,714 of unallowable cost-sharing claims
                   because of inadequate controls to manage, account for and report cost-sharing
                   obligations. We recommended that the college reimburse NSF $20,423 for the costs
                   that NSF incurred above its pro-rata share when the college failed to meet its cost-
                   sharing requirement. During the resolution of the audit, NSF learned that although
                   the original technology funded by the college and claimed as cost sharing failed to
                   operate, the college substituted another technology that was equally satisfactory to
                   NSF. Accordingly, NSF management determined that the college met its cost-sharing
                   requirement.

                         In a second audit of a northeast state education department, we identified several
                   instances of non-compliance with federal and NSF award requirements. In reaching
                   resolution on this audit, the department stated that it has developed policies and
                   procedures to address weaknesses in its systems for budgeting, tracking, and reporting
                   of cost-sharing amounts as well as to verify that employee time claimed as cost
                   sharing was actually for work done on NSF awards. Because the department has
                   historically promised to make changes that subsequent audits determined were not
                   implemented, NSF recommended a follow-up audit within six months and planned
                   to monitor the department’s compliance with federal and NSF award requirements.




          26
                                                                 OIG Semiannual Report September 2001




Northeast Engineering Research Center (ERC)
Overstated Industry Support by $6 Million

      NSF established the ERC program in 1985 to address engineering systems issues
and to educate students using a cross-disciplinary, team approach. NSF requires
centers to obtain substantial financial support from industry, including cash and in-
kind donations to support their research programs. The centers use industrial
membership programs as the primary mechanism for obtaining this support. NSF
also requires that centers submit an annual report describing the status of their research
and financial activities, including industrial support. Beginning in 1998, to clarify
industrial membership reporting, NSF required that ERC institutions verify in annual
reports that the industrial member firms are current members, as defined by a
membership agreement. We conducted an audit of industrial support claimed by
one northeastern university ERC. The audit resulted in reports identifying concerns
at both the university and at NSF.

      Our review found that for the four-year period ending August 31, 1998, the
center’s annual reports to NSF significantly overstated the amount of direct cash
and in-kind support it had received from industry sources. Of the $9.9 million of
direct cash and in-kind support reported, we accepted $3.8 million, or 38 percent.
Of the remaining $6 million, the center was unable to provide supporting
documentation, counted the same support twice, or claimed support, such as bench
fees and fellowships paid directly to students rather than to the center, which could
not otherwise be defined as direct cash or in-kind support. Additionally, of the 32
reported member firms, we were only able to verify membership agreements with
nine (28 percent). Finally, the center did not report to NSF the existence of a $1.9
million cash surplus it had accumulated from unspent industrial member contributions
and the investment income earned on the surplus.

      NSF utilizes data about the level of industrial support and the active participation
of industrial scientists in the ERC’s planning, education, and research activities in its
annual performance review of center operations. Based on this data along with an
annual site visit, NSF determines the level of future NSF support it will provide to
the center. In particular, NSF scrutinizes direct cash support to the center, because
the program’s objective is for the center to become self-sufficient after NSF funding
expires. Because the center overstated its industrial memberships and funding amounts
in the annual reports, NSF did not have accurate information when it was making its
annual funding decision. Despite the importance of this information to NSF’s annual
performance review process, the university did not independently verify the validity,
accuracy, or completeness of the annual reports before providing them to NSF.




                                                                                             27
Audits & Reviews




                        We recommended that the university (1) develop policies for adequately
                   accounting for and documenting in-kind donations made directly to the center, (2)
                   independently verify that the annual report is valid, accurate, and complete in
                   accordance with NSF’s award and annual reporting requirements, (3) independently
                   verify that all reported industrial members are members as defined by written
                   membership agreements, and (4) report annually to NSF the dollar amount of any
                   cash surplus accumulated from unspent industrial funds.

                        The university stated in its response to our draft report that it has implemented
                   the recommendation to independently verify that the annual report is valid, accurate,
                   and complete, and agreed in principle to the other recommendations, if these
                   requirements are applied by NSF to all ERC institutions. However, the university
                   did not agree that most of the specific industrial amounts it reported to us during
                   the audit were not in compliance with NSF’s reporting guidelines. Further, the
                   university believes that it is appropriate to continue to report the $6 million in
                   questioned industrial support to NSF. We disagreed with most of the university’s
                   responses to the claimed amounts for cash or in-kind support, and we have forwarded
                   these matters to NSF’s Division of Contracts, Policy, and Oversight for resolution.

                        In addition to findings and recommendations specific to the Center, we found
                   that NSF needs to improve its annual site review process and its data reporting
                   guidelines to help prevent such reporting problems by other ERCs in the future.

                        We recommended that NSF develop a written protocol to use in reviewing
                   performance data during site visits, including reported industrial financial support,
                   and that it include a member with business management experience on the site teams.
                   Further, we recommended that NSF revise its data reporting guidelines to limit
                   industrial financial reporting to only those funds that either are specifically identifiable
                   with an ERC or that can be assigned to an ERC with a high degree of accuracy.

                         NSF agreed with our recommendations. The agency will assist ERCs in preparing
                   the annual reports and associated performance data, and will conduct education
                   sessions and review annual performance data before each annual site visit. NSF will
                   also facilitate ERC directors’ understanding of NSF reporting requirements for grants
                   and contracts and require that ERCs report only research projects specifically cited
                   in an annual report, in which the logical connection to a strategic plan is explained.



                   Polar Program Reviews
                        The Office of Polar Programs oversees the U.S. Polar Research Programs, as
                   well as the U.S. Antarctic Logistical Support Activities. Its activities support
                   multidisciplinary research in the Arctic and Antarctic regions. During the past six


          28
                                                               OIG Semiannual Report September 2001




months, an audit report was issued on Antarctic logistical support and a prior audit
was resolved.



Systems for Monitoring Antarctic Flight Support Costs Are
Effective

      An audit of several specific operational issues related to the contracting of
flight support for the U. S. Antarctic Program (USAP) indicates that the systems are
functioning effectively. A primary focus was the adequacy of systems, policies and
procedures used to track and report the usage of aircraft supply and the allocation
of charges for contractor-performed aircraft maintenance, the cost of which is shared
between NSF’s Office of Polar Programs and other organizations. The report states
that there is substantial compliance with the systems in place, but makes a number of
recommendations aimed at better safeguarding the inventory and improving the
accuracy with which aircraft supply expenses are allocated.

      In addition, the report examines the USAP’s agreement with Air Mobility
Command to transport passengers and cargo between Christchurch, New Zealand,
and McMurdo for a fixed hourly charge intended to cover all costs associated with
operating the aircraft. We found that OPP is being charged separately for some
services, such as landing and departure fees, that should be covered by the hourly
charge it already pays. We estimate that the overcharges total approximately $50,000
per year. OPP agreed with most recommendations.



Western For-Profit Entity
Must Adjust NSF Award by $171,792

      In our March 2001 Semiannual Report (p. 11), we reported that a western for-
profit contractor had been succeeded by another contractor to provide logistics,
operations, engineering, and construction support for the USAP. Our audit of the
former contractor disclosed that it had charged NSF for fringe benefits that were in
excess of actual costs. In addition, problems were found with the contractor’s
accounting for commitments and obligations at the close of the contract period.
Finally, the contractor had not resolved issues with NSF concerning payments of
interest and penalty on unreported state sales tax and underspent funds for information
infrastructure.

     During the audit resolution process, the contractor provided evidence that it
had credited the NSF contract for $79,467 in overcharges for fringe benefit costs.



                                                                                          29
Audits & Reviews




                   Another $92,325 was credited to the contract for legal costs that NSF disallowed. In
                   total, $171,792 in credit adjustments were made to the NSF contract as a result of
                   this audit. The contractor satisfied NSF that the system it and its successor used to
                   transfer commitments and obligations at the close of the contract was adequate.
                   The contractor also provided evidence that it had settled a liability with the state
                   resulting from interest and penalty on unreported sales tax liabilities. In addition, the
                   contractor returned unspent funds intended for the development of information
                   infrastructure to NSF.



                   Other Audit Activities
                        The OIG was involved in several other audit-related activities during this
                   semiannual period:



                   Peer Review

                        In July and August, we conducted a peer review of the National Railroad
                   Passenger Corporation (Amtrak), another Designated Federal Entity OIG. The
                   Inspector General Act of 1978, as amended, requires that the audit function of each
                   OIG must receive an independent review by another OIG every three years. Such
                   peer reviews help ensure that OIGs are in compliance with auditing standards
                   established by the Comptroller General of the United States. A primary objective of
                   the peer review is to ensure that audit organizations establish an appropriate system
                   of internal quality control over its audits.

                        We found that the system of quality control for the audit function of the Amtrak
                   OIG, in effect for the year ended March 31, 2001, was designed in accordance with
                   the quality standards established by the PCIE. The system of quality control was
                   functioning effectively to provide the OIG with reasonable assurance of conforming
                   with professional standards in the conduct of its audits. Our letter of comments
                   recommended two minor improvements.



                   Certificate of Excellence in Accountability Reporting

                        Our audit staff participated in a joint project between the Association of
                   Government Accountants (AGA) and the Chief Financial Officers Council to
                   recognize federal entities that produce exceptional accountability reports. These
                   reports are prepared by federal agencies and include the agency financial statements,



          30
                                                               OIG Semiannual Report September 2001




auditors’ reports, and other financial reports required by statute. The Certificate of
Excellence in Accountability Reporting Program is open to all federal departments
and agencies as well as any organizational unit that resides within a department or
agency. As part of this effort, we evaluated an agency accountability report using
criteria prepared by AGA.



A-133 Related Reviews

     OMB Circular A-133, issued pursuant to the Single Audit Act of 1984, as
amended, sets forth standards for attaining consistency and uniformity among federal
agencies for the audit of state and local governments, educational institutions, and
nonprofit organizations that receive federal awards. Reports prepared by independent
auditors in accordance with this circular are referred to as A-133 audits.

      Our office receives and reviews A-133 audit reports through the Federal Audit
Clearinghouse for institutions expending NSF funds. During this reporting period,
we reviewed 130 A-133 reports accounting for NSF expenditures approximating
$1.2 billion for fiscal years 1997 through 2000. After our review, 80 reports involving
questioned costs, internal control weaknesses, and/or non-compliance with federal
laws and regulations were forwarded to NSF’s Division of Contracts, Policy, and
Oversight to either resolve audit findings involving agency funds or inform them of
internal control weaknesses among NSF awardees.

     In three reports, the auditors questioned $236,471 of NSF-funded costs related
to employee fringe benefits, as well as indirect and other types of costs. In addition,
67 institutions had internal control and compliance findings related to reporting,
cash management, allowable costs, equipment, inventory, sub-recipient monitoring,
procurement, suspension and debarment.

     Our office also continued to examine Management Letters, which report internal
control weaknesses that are generally less significant than those reported in the A-
133 report, but require management’s attention. Our review of 36 Management
Letters this reporting period found that the auditors identified issues related to the
awardee institutions’ business continuity plans, information technology, and policies
and procedures.



Solicitation of CPA Contracts

     As noted in previous semiannual reports, the OIG relies on independent public
accounting firms to assist in carrying out our audit responsibilities. During this
reporting period, we awarded eight task order contracts under the General Services


                                                                                          31
Audits & Reviews




                   Administration’s Federal Supply Schedule. These contracts will enable us to meet
                   the requirement of the Chief Financial Officers Act for an annual audit of NSF’s
                   financial statements, as well as provide audits of grants, contracts, and cooperative
                   agreements awarded by NSF to various research and educational institutions and
                   organizations. Purchasing agreements were awarded to seven firms for audits of
                   NSF’s financial statements and awards for up to a five year period.



                   Internal and External Requests for OIG Comments

                        During the last six months, the OIG responded to various inquiries and requests
                   from external organizations, including the Congress, General Accounting Office,
                   Financial Accounting Standards Advisory Board, and Office of Management and
                   Budget. Examples include: questions from congressional committees and GAO
                   concerning NSF’s efforts to manage improper payments; a request from the Congress
                   to identify NSF’s top 10 performance measures; comments on an exposure draft to
                   the GAO Government Auditing Standards or other guidance provided by OMB,
                   Treasury, the Joint Financial Management Improvement Program, or the President’s
                   Council on Integrity and Efficiency.




          32
                                                                         Investigations


     I
            n this semiannual, we present an overview of significant
            investigative activities, including cases, special projects, and
            interactions with this agency and others. Our efforts are fo-
cused on improving and enhancing the integrity of NSF’s systems and
processes, and helping ensure that NSF conducts business with re-
sponsible individuals and entities. We investigate allegations of wrong-
                                                      doing involving indi-
                                                      viduals and organiza-
                                                      tions that receive
                                                      funds from, submit
                                                      proposals to, review
                                                      proposals for, con-
                                                      duct business with, or
                                                      work for, NSF. If we
                                                      determine         that
                                                      wrongdoing         oc-
                                                      curred, we assess the
                                                      seriousness of the
     Joseph Pinto, an OIG Investigator, assisted
       in the recovery efforts at the Pentagon.       matter and either rec-
                                                      ommend administra-
                                                      tive action by NSF
management or refer the case to the Department of
Justice or other prosecutorial authorities for criminal prosecution or
                                                                                      HIGHLIGHTS
civil litigation.

                                                                               Administrative
        Information for OIG investigations comes from many sources.            Investigations        34
NSF officials, grant recipients, private citizens, and staff from
government agencies often refer tips or other information. Another             Civil and Criminal
source is our Hotline, a toll free number that provides anonymity and          Investigations        41
direct access to OIG staff. We may also be contacted by e-mail at
oig@nsf.gov to notify our office of any wrongdoing related to NSF
                                                                               Improvements in the
processes, funds, or projects.
                                                                               Investigative
                                                                               Process               44

                                                                               Overview of
                                                                               Case Activity         46



                                                                               33
Investigations




                 Administrative Investigations
                 Findings by the Deputy Director

                 NSF Concludes Computer
                 Scientist Committed Plagiarism

                       In our September 2000 Semiannual Report (page 25), we discussed the case of
                 a computer scientist at an Illinois public institution who plagiarized material from a
                 conference proceedings into an NSF proposal. Consistent with our recommendation,
                 NSF’s Deputy Director issued a finding of misconduct in science. NSF determined
                 that the actions of the institution were adequate to protect the Federal Government’s
                 interests. The actions included a letter of reprimand, a one-year suspension from
                 applying for external grants, withdrawal of all pending proposals, and ethics training,
                 followed by a one-year requirement that the subject obtain approval of his department
                 chair on new proposals. NSF also required the computer scientist to submit written
                 certifications and assurances that any new documents submitted to NSF over a one-
                 year period did not contain plagiarized material.



                 Administrative Investigations
                 Forwarded to the Deputy Director

                 Plagiarized Material in a
                 Small Business Innovation Research Proposal

                       We received an allegation that a scientist employed by a small business in Ohio
                 plagiarized material into a proposal he submitted to NSF under the Small Business
                 Innovation Research (SBIR) program. We asked the scientist for an explanation of
                 why text and figures in his proposal were substantially identical to those in six source
                 documents. In response, he stated that five of the documents were published by
                 members of his former research group. He said that when he prepared the proposal,
                 shortly after leaving the group, he felt as though he was still part of the group. He
                 characterized his failure to properly cite the sixth document as careless.

                     The president of the small company provided us with copies of two other
                 proposals submitted by the scientist to other Federal agencies within 2 months of the
                 submission of the scientist’s NSF proposal. We observed that the scientist copied



        34
                                                                OIG Semiannual Report September 2001




some of the same plagiarized text contained in his NSF proposal into these two
proposals without attribution. We also noted that several figures in the two later
proposals, which had been properly attributed in his NSF proposal, were not cited
appropriately.

      In our view, the subject’s argument that he could use published material from
his former research group without attribution is inconsistent with the ethical standards
of the research community. We recommended that NSF find the scientist committed
misconduct in science, send him a letter of reprimand, and require for a period of 2
years that he submit certifications and assurances to OIG that any documents he
submits to NSF contain no plagiarized material.



Failure to Comply with Certification Requirements

     In our September 1997 (pp. 36-37) and March 1999 (p. 19) Semiannual Reports,
we described a case in which the Deputy Director found that the subject committed
misconduct in science when he seriously misrepresented his research progress and
capabilities in proposals submitted to NSF. The Deputy Director required the subject
to provide detailed certifications and assurances to OIG for 2 years starting in April
1999, in connection with any proposal or report submitted to NSF.


      In the course of reviewing compliance with these requirements, we learned that
the subject failed to provide certifications or assurances for a proposal he submitted
in August 1999, for a request for Research Experiences for Undergraduates funding
submitted in March 2000, and for a research proposal submitted in July 2000. In
response to our request for explanation, the subject stated his belief that the
certifications and assurances were only required for full research proposals, and then
only after they were approved for funding. He also complained that nobody at NSF
reminded him to provide the certifications and assurances.


      We believe that the Deputy Director’s letter informing the subject of the
certification / assurance requirements was unambiguous. The most important purpose
of a certification / assurance requirement is to compel the subject to exercise greater
deliberation and care in the preparation of his proposals, and then to engage either
his department chair or dean to evaluate the veracity of the substance of those




                                                                                           35
Investigations




                 proposals. These actions can only be meaningful if they occur before the proposals
                 are submitted. Moreover, NSF staff were not in a position to provide reminders:
                 certifications and assurances are sent directly to OIG, a process that helps ensure that
                 past findings of misconduct are separate from NSF’s merit review process.


                      We concluded that the subject’s repeated disregard of the certification / assurance
                 requirement was—like the misconduct that precipitated its imposition—knowing
                 and deliberate. We believe that the imposition of administrative actions less than
                 debarment in serious misconduct cases, such as this one, can only be effective if they
                 are enforced by the imposition of significant adverse consequences when they are
                 breached. Accordingly, we recommended that NSF debar the subject for a period of
                 2 years.



                 Significant Administrative Cases

                 Working with NSF to
                 Resolve Animal Care and Use Issues

                       We received an allegation that a small college in Wisconsin violated animal care
                 and use regulations in the course of carrying out research under NSF awards. The
                 college lacked a Multiple Project Assurance (MPA) or an Institutional Animal Care
                 and Use Committee (IACUC), and had arranged for a nearby university to review
                 and approve its animal care and use protocols. However, we found that the college’s
                 administration did not have a clear understanding of the IACUC approval and oversight
                 process or Federal regulations governing animal care and use in research, resulting in
                 several minor violations of the vertebrate animal care and use regulations. (There
                 was no evidence that the violations resulted in harm to the animals.)

                      This situation was brought to the attention of our office by the NSF program
                 director of the managing program. After reviewing documents from both institutions,
                 we determined that on-site inspections, required by NIH guidelines, had never been
                 performed. We then met with NSF management, including NSF’s animal care and
                 use representative, to discuss the best course of action to assist the college in attaining
                 compliance.

                      NSF’s animal care and use representative briefed college officials on the rules
                 and regulations governing animal care and use. Concurrently, NSF suspended the
                 use of animals under the grant for 30 days while the college convened its own IACUC
                 and conducted a facilities inspection. The results of these corrective actions were



        36
                                                                  OIG Semiannual Report September 2001




sent to the NSF animal care and use representative and our office. Upon NSF’s
approval of the IACUC-approved animal care protocol, the IACUC membership
and proceedings, and the inspection report, the animal activity under the grant was
reinstated.

      OIG conducted a follow-up visit to the institution, where we interviewed several
faculty members and inspected the research facility. We found no deficiencies and
concluded that the institution was in compliance with Federal animal care regulations.



University Finds Complainant Guilty of Misconduct

     Although the majority of misconduct allegations are made in good faith,
complainants sometimes make bad faith allegations. One such case recently occurred
at a Texas public university.

      The university had conducted an inquiry and concluded that an apparent instance
of plagiarism required investigation. Because the subjects’ work had been supported
by NSF, the university notified us. The inquiry found that two publications by different
authors—the subjects and complainant, respectively—contained substantially similar
text and data. The authors of both publications maintained that they had collected
the data, carried out the analysis, and written the articles themselves.

      The university investigated and found that the data collection, analysis, and prose
in dispute were the original work of the subjects. It found that the complainant had
misappropriated the subjects’ work and then accused them of plagiarizing her. The
university decided to terminate the complainant’s employment.

       We reviewed the university report and determined its conclusion, that the subjects
had not committed misconduct, was well supported by the evidence. Because none
of the complainant’s actions occurred in conjunction with NSF proposed or funded
activities, we lacked jurisdiction over them and did not evaluate the report’s conclusions
regarding them.



PI Fails to Disclose and Distinguish
Between Virtually Identical Proposals

     We received an allegation that a proposal, submitted to the NSF Small Business
Innovation Research (SBIR) program by the president of a small company in New
Hampshire, was virtually identical to a funded proposal he submitted 2 months earlier
to another Federal agency. The NSF proposal cover sheet asks “Is this proposal being


                                                                                             37
Investigations




                 submitted to another Federal agency”? In this case the president answered “No” to
                 that question.

                       The president asserted the two proposals were significantly different, and he
                 provided us with a detailed explanation of the differences in the experiments presented
                 in the NSF proposal and the proposal funded by the other Federal agency. However,
                 the president also admitted that the NSF proposal, which was not funded, did not
                 adequately address the technical details associated with these differences.

                      We asked an expert to compare the proposals and review the president’s
                 explanation. She concluded the two proposals were virtually identical in organization,
                 content, and task descriptions and contained identical tables, figures, and narrative
                 with a few exceptions. She also explained that the few differences in the NSF proposal
                 were consistent with the president’s explanation, although the president had not done
                 an adequate job of emphasizing the technical specifications of the NSF proposal.

                      We concluded the president was careless in the preparation of the NSF proposal,
                 both in failing to disclose the prior submission of the same proposal to another
                 agency and in failing to adequately describe the proposed research. We wrote to the
                 president strongly recommending he be more thorough and careful in future
                 submissions of proposals to Federal agencies to avoid similar allegations. We
                 determined his conduct did not warrant our recommending further action by NSF.
                 We described similar cases in previous years (see Semiannual Reports: March 1998, p.
                 21; September 1999, p. 26; March 2000, p. 24; September 2000, p. 28), and always
                 urge scientists participating in the SBIR program to accurately inform NSF when
                 they are submitting the same proposal to different Federal agencies.



                 Graduate Student Alleges Theft of Ideas by Advisor

                      We received an allegation from a graduate student at a university in Washington,
                 D.C., that his faculty advisor stole the student’s research work. The student also alleged
                 that the advisor did not provide him with appropriate compensation for work he
                 performed for an NSF-supported project. Since the university had already initiated
                 an inquiry into the student’s complaints, we deferred our inquiry and requested a
                 copy of its inquiry report when completed.

                       The university inquiry committee determined that the faculty advisor had
                 submitted two papers to conference proceedings which contained research work of
                 the student, both listing the student and the advisor as co-authors. The student
                 believed that publication of his dissertation research would prevent him from receiving
                 the Ph.D. In fact, the Department expected each student to publish a paper prior to
                 the completion of the dissertation as partial fulfillment of the degree. The student


        38
                                                                    OIG Semiannual Report September 2001




also thought that if the acknowledgment section in a paper stated that NSF support
was involved, he should receive money from that grant for work on the project. The
committee noted that the student’s education was supported from the institution’s
funds, not NSF. The committee explained to the student that acknowledgment of
NSF support in a paper did not mean he received compensation.

     The committee subsequently determined that the allegations were without
substance. As a result of the inquiry, the institution increased its efforts to inform
graduate students about issues related to common practices and misconduct in science.
We concurred with the university’s findings and closed our inquiry.



Reviews Drawn From Administrative Case Experiences

     We strive to aggregate information from isolated cases to develop a
comprehensive, uniform approach to cases. These analyses also provide us with the
opportunity to conduct a targeted review of particular NSF systems. In this period,
we conducted a limited review of NSF’s reconsideration process, as well as an analysis
of our closed plagiarism cases. A synopsis of both efforts is described below.



Recommended Improvements
in NSF’s Reconsideration Process

     During this semiannual period, we initiated a review of NSF’s reconsideration
process. When Principal Investigators (PIs) contact us with concerns about declined
proposals we inform them about the process. Because many of these PIs are unhappy
with NSF’s decision, we frequently advise them to determine whether they want to
request reconsideration by NSF. Their decisions regarding reconsideration have no
effect on our review of their complaints because our reviews are independent of
NSF’s reconsideration process and can proceed concurrently.

      We were also interested in the reconsideration process because the FY99 NSF
customer satisfaction survey indicates that PIs give the NSF review process a
satisfaction rating of 58/100 (American Customer Satisfaction Index Report on Grant
Applicants FY99 for NSF, November 2000). However, despite declining an average of
20,000 proposals, NSF receives only 40-50 reconsideration requests each year (Report
to the National Science Board on the National Science Foundation’s Merit Review System Fiscal
Year 2000, NSB 01-36). We reviewed the proposals NSF reconsidered in FY2000,
assessed the reconsideration process, and interviewed staff to identify areas for
improvement.




                                                                                                39
Investigations




                       We learned that only 40% of PIs who applied for reconsideration had been
                 informed of the reconsideration process in declination letters and that some NSF
                 staff feel that PIs are confused about the purpose of reconsideration. NSF staff
                 stated that some PIs incorrectly assume it is an opportunity to rebut reviewer
                 comments and provide new information. In fact, reconsideration is a substantive
                 and procedural review of the process NSF used to make its decision and considers
                 only the facts before NSF at the time of the declination.

                       NSF staff felt that some PIs consider the initiation of the process to be daunting
                 because they are required to contact their NSF program officer first to discuss the
                 rationale for the decline before requesting reconsideration. Some PIs contact the
                 wrong individual to begin the process and are frustrated by their inability to gather
                 information about the status of their request for reconsideration.

                      We also learned that reconsiderations are not tracked in NSF’s electronic jacket
                 system, and no relevant data is available in the Enterprise Information System.

                      We recommended that NSF better publicize the reconsideration process by
                 incorporating information about it in all declination letters. We suggested that NSF
                 improve its internal and external documentation of the reconsideration process and
                 consider designating an NSF staff member to perform an Ombudsman function.
                 The Ombudsman could serve as a neutral point of contact, a centralized source of
                 information, and an effective process manager for timely and objective review of
                 reconsideration requests. We also recommended that NSF augment its electronic
                 data system with data on reconsidered proposals, and that it begin collecting
                 reconsideration documentation within its electronic jacket system.

                      The scope of our review was limited to FY 2000 reconsideration requests. A
                 broader review may obtain different results.



                 Review of Plagiarism Cases

                       Individual scientists and professional societies regularly ask us for details on the
                 scope and frequency of the plagiarism cases we investigate. Approximately 49% of
                 all the allegations we have reviewed are allegations of plagiarism which includes
                 verbatim plagiarism (17%), intellectual theft (23%), violation of peer review (7%)
                 and duplicate proposal submission (2%).

                      The intellectual theft category, also known as plagiarism of ideas, contains the
                 most eclectic group of allegations and are the most time consuming and difficult to
                 prove. They encompass a broad range of potentially inappropriate behavior, including
                 authorship disputes among colleagues, as well as disputes between mentors and


        40
                                                                  OIG Semiannual Report September 2001




students. They also include allegations of failure to cite, or to sufficiently cite, ideas
in proposals, poster sessions, the published literature, public seminars and private
conversations. Many of these allegations are brought by former collaborators who
feel that ideas they contributed to papers, research projects, or proposals cannot
subsequently be used without permission or attribution by their former collaborators.
We generally close these cases after inquiry because we find that only rarely do scientists
develop a clear agreement about the subsequent use of ideas, data, and materials
prior to initiating a research project. Without a specific prohibition, we generally
conclude that it is accepted practice for former colleagues to make subsequent use of
materials and ideas shared within a collaboration.

      Among the allegations of verbatim plagiarism, we reviewed evidence that figures,
text, equations, diagrams, and references have been copied without attribution.
Regarding text, we reviewed allegations ranging from small amounts of scattered
paraphrasing within a document, up to allegations that whole proposals have being
copied verbatim. In some cases, we considered whether including a reference to a
source document near or within the copied text is a mitigating factor.

     Sixty-seven percent of our cases resulting in misconduct in science findings
concern allegations of plagiarism. More than a third of these cases were also associated
with other actions that violate community standards, including violations of
confidential peer review, intellectual theft, or undeclared duplicate proposal submission.
Almost half of the misconduct findings were sufficiently serious to warrant the most
severe actions, which include suspension/termination of an award or debarment.

      We have prepared a summary of our findings in a poster session to be presented
at a national meeting and used in our Outreach and Ethics Seminars.




Civil and Criminal Investigations
Cases for Criminal Referral

Possible Fraud Under SBIR Grants

      We were notified by a university in South Carolina that one of its faculty (the
subject) used his university laboratory and graduate students to carry out work under
an NSF SBIR grant to his wife’s private company. Under the SBIR program, at least
half of the work must be performed at the awardee small business. Our investigation
revealed that in fact no work at all had been performed under the Phase I SBIR grant.



                                                                                              41
     Investigations


       Program Income Requirements
             Under NSF Awards
                                                  The final report submitted by the subject for the Phase I
“Program income” refers to income received
                                                  grant was essentially copied verbatim from a Masters thesis
by a Federal awardee that is either directly      written by one of the subject’s graduate students before
generated by the grant activity or earned as a    the grant was awarded. Most of the $99,300 of grant funds
result of the grant. It does not include (1)      were paid by the awardee to the subject and his wife as
income resulting from patents, copyrights,        salaries, with the remaining $20,000 paid to the subject as
trademarks, or inventions; or, except as          “reimbursement” for “supplies”.
discussed below, (2) program income received
beyond the period of the award. Pursuant               Based on the final report for the Phase I grant, the
to NSF’s Grant General Conditions unless          subject submitted a Phase II SBIR proposal to NSF on
otherwise specified in the award, grantees        behalf of his wife’s company. NSF awarded a Phase II
are required to retain program income, add        grant to the company for $399,892, and made the first
it to the funds committed to the project by       payment of $99,974. After reviewing the available
                                                  documents and interviewing the subject, his wife, and his
NSF, and use it to further project objectives.
                                                  former graduate student, we recommended that NSF
After the awardee adds the program income
                                                  suspend the grant and it did so. The subject subsequently
to the total award amount, the expenditure        repaid $198,975 to NSF, and also made an unrestricted
of the program income is subject to the same      donation to NSF of an additional $27,500. Other aspects
requirements of allowability, reasonableness,     of this case are continuing to be reviewed by our office.
and allocability as the direct Federal award
funds.
                                                  University Returns Grant
Because of the Federal character of program
income, allegations of theft or fraud involving
                                                  Funds Related to Program Income
program income can constitute violations of
Federal civil and criminal laws, and abuse              A New Mexico university informed us that a professor
of Federal program income can give rise to        of mechanical engineering failed to properly account for
Federal equitable remedies such as                program income (conference registration fees), improperly
                                                  spent NSF funds (food, beverages and holiday gifts), and
disgorgement.
                                                  violated conflict-of-interests rules (employment of a family
                                                  member as a consultant) in the planning and implementation
In the case described above, the special NSF      of an NSF-sponsored conference. The professor had
grant conditions applicable to conferences        awarded a contract to a private company owned by his wife
(NSF FL 26) require that fees charged to          and himself to coordinate the conference, receive the
participants be applied to defray conference      registration fees, and pay certain expenses not being paid
expenses, and that excess fees be applied to      directly by the university out of NSF grant funds. After
offset award funds. Because these special         conducting an internal audit, the subject and the university
conditions are not limited to program income      agreed on a settlement by which the subject reimbursed
received during the period of the award, it       $22,453.65 to the university.
was appropriate in this case for the awardee
to offset the income against previously                After receiving the internal audit report, our office
expended NSF award funds, and return the          conducted an independent investigative financial review of
                                                  the conference grant, focusing on the program income (see
 excess award funds to NSF.
                                                  sidebar) received by the professor’s company. Of the


              42
                                                                 OIG Semiannual Report September 2001




$124,955 in registration fees received by the company, we questioned $87,302.43 that
should have been received by the university and applied to offset the equivalent amount
of NSF grant funds. The university agreed with most of our findings and reimbursed
$63,652.42 to NSF.



Misappropriation of NSF Grant Funds

      We were informed by a Pennsylvania university that it had begun an investigation
under its misconduct in science regulation. It was alleged that a professor of mechanical
engineering had misappropriated a small amount of NSF grant funds for personal
use, specifically for textbook purchases for a son attending the university. We informed
the university that conversion of NSF grant funds to personal use was a potential
civil or criminal issue, not misconduct in science. However, because of the small
amount of funds involved, we deferred our investigation while the institution
completed its process. In the course of the investigation, the subject acknowledged
purchasing the textbooks with NSF grant funds, but claimed that he did so on the
recommendation of his son to assist the subject in learning complex mathematics
and new computer programming techniques. The subject voluntarily reimbursed the
university for the questioned expenditures, which the university credited to the NSF
grant.



Computer Intrusions

OIG-Computer Incident Response Team (CIRT)

       At NSF’s request we responded to two computer intrusions during this period.
We attended training and joint agency meetings to improve our skills and ensure our
abilities to coordinate our CIRT efforts with other agencies.

     The intrusions both involved “graffiti hacks,” in which the hacker replaces a
website’s default home page with another page, usually declaring that the site has
been hacked. There was no evidence in either case of harm done to other files, and
the server was again online after a short time. In both cases, NSF CIRT procedures
were followed and an incident report was filed with the Federal Computer Incident
Response Center (FedCIRC).

     We also learned of an incident in which data had been deleted from an internal
NSF server, temporarily preventing approximately a dozen users from using NSF’s
internal systems. A contractor that NSF utilizes for computer forensics, NetSec,



                                                                                            43
Investigations




                 completed a scan and review of the database involved. Although the cause of the
                 corruption remains unidentified, NetSec concluded that the data deletion was an
                 error and not intentional or malicious.



                 Improvements in the Investigative Process
                 Inclusion of NSF Under the
                 Program Fraud Civil Remedies Act

                       An NSF legislative priority that we have supported since the inception of our
                 office is amending the Program Fraud Civil Remedies Act (“PFCRA”) to include
                 NSF. (See Semiannual Reports: March 1990, p. 24; March 1991, p. 42; September 1992,
                 p. 31; March 1993, p. 35; and March 1994, p. 42). Currently, PFCRA does not cover
                 NSF because it authorizes only a government “authority” to bring an action, and
                 “designated federal entities” such as NSF are not included in PFCRA’s definition of
                 “authority”. However, we believe that PFCRA is well-suited for resolving disputes
                 between NSF and its grantees and contractors involving fraudulent claims because
                 the dollar amounts at issue often fall within PFCRA’s jurisdiction over claims of less
                 than $150,000.

                      In a number of cases, including some currently under way, NSF might have
                 used PFCRA to seek double damages for fraudulent expenditures. We again urge
                 Congress to consider legislation to effect this change.



                 Training and Process Improvements

                      In order to more effectively pursue allegations of fraud, waste and abuse referred
                 to the OIG, we combine the perspectives and expertise of the various disciplines
                 represented in our office, including investigative scientists, investigative attorneys
                 and criminal investigators. We continuously seek training opportunities that will help
                 our staff develop the skills to work in these multi-disciplinary investigative teams.
                 Similarly, we strive to improve the tools and processes with which our staff work.
                 Some of our recent training and administrative initiatives include:

                 Audit Training for Investigators
                     In June, our investigative staff attended training at the Inspectors General Auditor
                     Training Institute in Fort Belvoir, Virginia. The five-day course was titled, “The
                     Audit Process: An Overview for Non-Auditors.” Our objective was to provide
                     investigators with an understanding of how auditors plan their work, assess


        44
                                                                OIG Semiannual Report September 2001




   evidence, and report their findings. The end result was a greater understanding
   of how to enhance our use of audit expertise in investigations.

Grant and Contract Fraud Training
   In August, we hosted a three-day training program on procurement, contract and
   grant fraud provided by the Inspector General Criminal Investigator Academy.
   Attendees included investigators and auditors from our office as well as the FBI,
   NASA-OIG, Interior-OIG, EPA-OIG, NEA-OIG, and HUD-OIG.

Development of Grant Fraud Indicators
   We created a checklist of possible grant fraud indicators for use by auditors and
   investigators to enhance our ability to detect grant fraud by identifying and knowing
   its risk factors. The checklist is drawn from a wide variety of sources, including
   accounting rules, statutory law and the experience of auditors, attorneys and
   criminal investigators. The grant fraud indicators checklist will enable us to better
   fulfill our mission of promoting economy, efficiency, effectiveness and integrity
   in NSF programs. We hope to share this work product with other Federal agencies
   that investigate grant fraud, in order to create a shared resource useful to various
   members of the IG community.

Records Retirement
   In December 1998, the National Archives and Records Administration (NARA)
   withdrew General Records Schedule (GRS) 22, which regulated the retention and
   disposal of all audit and investigative files compiled by all Offices of Inspectors
   General, including NSF’s OIG. We submitted a Request for Records Disposition
   Authority to NARA to classify our audit and investigative files, as well as records
   pertaining to policies and procedures, for retention and disposition. We are awaiting
   action by NARA. In the process of surveying other OIG offices, we learned that
   we were not alone in having been unaware that NARA had withdrawn GRS 22.
   Our office is ready to provide assistance in the drafting of a Request for Records
   Disposition Authority to any Federal OIG without a current records retention
   policy.

New Hotline Procedures
   The OIG Hotline (800-428-2189) is monitored by our Administrative Officer
   (AO), who either takes the information or transfers the caller to another member
   of the IG staff. Our AO attended training at the Federal Law Enforcement
   Training Center on how to handle such calls. An OIG Hotline Intake System was
   recently established to ensure consistent handling of hotline calls. Now any IG
   staff member who receives information from a Hotline call records the information
   directly into a database, which is monitored so that the information can be
   forwarded to the appropriate staff for action.




                                                                                           45
Investigations




                 Overview of Case Activity
                 Summary of Case Activity for this Period

                       We receive allegations of wrongdoing from a variety of sources, including NSF
                 staff, merit reviewers, researchers, graduate students, and institution officials. We
                 review each allegation we receive for substance, including those we receive
                 anonymously, and classify them as either Preliminary, Administrative (which includes
                 misconduct in science), Civil/Criminal, or a newly added category this period,
                 Computer Incident cases. Preliminary cases are generally closed within two months,
                 referred to management for resolution, or, if supported by sufficient evidence,
                 converted into Administrative or Civil/Criminal cases. Computer Incident cases,
                 such as intrusions, are handled separately.
                       We received 73 allegations in this semiannual period. Of these, 42 were initially
                 classified as Preliminary, 15 as Administrative, 11 as Civil/Criminal, and 5 as Computer
                 Incident cases. We closed 37 Preliminary cases after determining there was insufficient
                 evidence to warrant opening an Administrative or Civil/Criminal case. We closed 8
                 Preliminary cases that were converted into Administrative (4) or Civil/Criminal (4).
                 We also closed five Computer Incident cases this period.



                 Administrative Cases

                       The majority of our Administrative cases involved allegations of misconduct in
                 science. Under our misconduct in science regulation, cases can involve three steps:
                 inquiry, investigation, and adjudication. An inquiry consists of initial information
                 gathering and fact finding to determine whether the allegations are substantive. If
                 we find that an allegation lacks substance, we close the case. If we determine that an
                 allegation has substance, we initiate an investigation. If, after investigation, we believe
                 misconduct in science has occurred, we send a recommendation to NSF’s Deputy
                 Director for adjudication.

                       We closed 17 Administrative cases at the inquiry stage this period. These cases
                 involved subjects at public colleges and universities (14), private universities (2), and
                 private industry (1). The primary allegations in these cases included intellectual theft
                 (12), false statements or other misrepresentations (3), and animal care violations (2).
                 We contacted the subject in 10 of these cases and we requested an expert’s opinion in
                 1 case.

                     We closed one Administrative case after investigation. NSF’s Deputy Director
                 made a finding of misconduct in science in this case and took action consistent with



        46
                                                                  OIG Semiannual Report September 2001




our recommendations (p. 34). In other Administrative case actions this period, we
deferred five inquiries to grantees and forwarded results of two investigations to
NSF’s Deputy Director for adjudication (pp. 34-36).



Civil/Criminal Cases

      We closed nine Civil/Criminal cases that involved possible violations of Federal
laws, specifically, false statements (4) and embezzlement or theft (5). We also referred
three cases to the Department of Justice for prosecution.



Computer Incidence Cases

      We closed 5 Computer Incident cases this period that involved computer
intrusions (3) and other issues (2).



Freedom of Information Act and Privacy Act Requests

      Our office has the responsibility to respond to requestors who ask for information
contained in our files under the Freedom of Information Act (“FOIA”, 5 U.S.C. §
552) and the Privacy Act (5 U.S.C. § 552a). Requestors not satisfied with our response
can appeal to the General Counsel of NSF. Certain FOIA requests are subject to
fees as described in NSF’s FOIA regulation at 45 C.F.R. § 612.10.

      This reporting period, we received seven requests and we responded to five
(reply dates for the other two are due after September 30, 2001).



Preliminary Case Activity

      Over the past year and a half we have been working to streamline our investigative
processes and develop a more uniform approach to assessing administrative, civil,
and criminal allegations. On receipt of an allegation, we first assess the nature of the
evidence supporting the allegation and whether the issues are predominantly
Administrative or Civil/Criminal. For those allegations that are accompanied by
insufficient evidence to classify in either category, we created a Preliminary case phase.
The objective of Preliminary case assessment is to improve our rate of allegation
assessment and reduce the administrative burden on investigators. Unlike



                                                                                             47
Investigations




                 Administrative and Civil/Criminal cases, Preliminary cases may be closed with a diary
                 note from the investigator and are not subject to extensive management review.
                 Investigators assigned Preliminary cases are expected to gather sufficient evidence
                 from the complainant within 2 months to close the matter, refer the matter to NSF
                 management, or reclassify the case as Administrative or Civil/Criminal. Conversion
                 of Preliminary cases to Administrative or Civil/Criminal cases is accomplished by
                 reviewing the evidence and rationale for conversion with the case supervisor.

                      The table below displays our processing of Preliminary cases over the last three
                 semiannual periods.



             Semiannual         Closed        Management Administrative Civil/Criminal         Insubstantial
             Period           Preliminary       Issues    Conversions    Conversions              Matters
                                 Cases

             Sept. 2000            19               4                4               2                9

             Mar 2001              34               7                1               3               23

             Sept. 2001            45               9                4               4               28

             Totals                98              20                9               9               60



                       We view the preliminary process of assessing allegations that are weakly supported
                 by the evidence, or for which we may have questionable jurisdiction, as a valuable
                 addition to our investigative portfolio. In the past year and a half, we have closed 98
                 in Preliminary files. We determined that approximately 61% were not supported by
                 sufficient information to proceed further or we had no jurisdiction over the issues,
                 20% were management issues that were forwarded to the appropriate office, and
                 only 9% were Administrative or 9% Civil/Criminal issues. While it takes us
                 approximately 6 months to assess and resolve a typical Administrative case, it takes us
                 approximately 2 months to review and process the typical Preliminary case (the
                 complications of assessing the allegations in a few cases caused longer processing
                 time). The Preliminary case system has reduced the bureaucracy associated with case
                 management, enabled investigators to appropriately focus on more serious matters,
                 and allowed us to accurately track all of the allegations we review and to which we
                 devote investigator time.




        48
                                                                                      Outreach

Outreach Activities

OIG Outreach Planning and Evaluation

      We have conducted Education and Outreach activities of various
types since the inception of the office. In 1999, we committed to
developing a strong and significantly expanded Education and Outreach
program. As part of our ongoing effort to focus that commitment, we
developed an Education and Outreach Plan during this semiannual
period. In it, we discuss the current status of
our outreach efforts, describe our goals and
strategies, identify our partners and the
messages we wish to communicate, and outline
the methods we will use to accomplish our
goals. Our goals, which are based on the OIG
Strategic Plan, are to:

    1. Ensure the integrity of financial,
       administrative, and research systems;
    2. Detect fraud, waste, abuse, and
       research misconduct;
    3. Maintain current information about
       the communities we serve to help us
       focus on matters of substantive                        OIG Staff consider a proposal for the
       concern;                                                  Education and Outreach plan.
    4. Make it easy for the communities we
       serve to contact and interact with us.

     The strategies we plan to use to accomplish our goals are to build
strong relationships with key partners, create a baseline of partner needs
and expectations, and inform our partners about OIG resources,
programs, and materials that may be valuable to them.

   In June 2001, we presented this plan to the Audit and Oversight
(A&O) Committee of the National Science Board (NSB). The A&O
Committee requested that the OIG also provide a description of how



                                                                              49
Outreach




           it would assess the effectiveness of its Outreach work. We consulted with the NSF
           Division of Research, Evaluation and Communication (REC) in the Education and
           Human Resources (EHR) Directorate to consider evaluation methods appropriate
           for our needs.

                 As a result, we will divide our evaluation into three stages: planning evaluation,
           formative evaluation, and summative evaluation. We will evaluate how well our
           Outreach Plan is understood at an Outreach Retreat for OIG staff in October 2001.
           At that retreat we will discuss the effectiveness of our existing evaluation tools,
           including our evaluation forms and summary forms, and what additional evaluation
           tools we should use to evaluate the implementation and progress of our Outreach
           work. We plan to conduct a summative evaluation at the end of FY 2005, at which
           time, our Outreach Plan will have been in place for 5 years. We believe it will be
           appropriate at that point to consider the impact of the project and determine future
           steps.

               (Our Strategic Plan is available at oig.nsf.gov/stratplan.pdf.)



           International Cross-Cultural Exchanges

                During the summer we hosted visitors from the governments of South Africa
           and Japan with whom we discussed a variety of audit and investigative policies and
           procedures. The South African government is interested in setting up an internal
           audit function to review business practices in its research facilities and institutions,
           primarily to help prevent and detect fraud. Japan’s representatives from the Ministry
           of Economy, Trade and Industry (METI) are interested in establishing audit procedures
           that will improve their ability to assess internal controls. As Japan revitalizes its
           research focus to address evolving program demands and priorities, METI is seeking
           ways to improve accountability of awardees. Both nations are interested in procedures
           for handling allegations of misconduct in science.



           Presentations Emphasize Accountability, Integrity

                  In early August the IG participated in the leadership retreat sponsored by the
           Society of Research Administrators International (SRA). Founded in 1967, SRA
           International is a non-profit association dedicated to advancing the profession and
           improving the efficiency and effectiveness of research administration. The IG
           presented the keynote address to the group and focused on issues of future
           accountability, including the importance of data-driven performance based reporting,
           fiscal integrity related to grant and contracts, and research integrity. The IG emphasized



   50
                                                                  OIG Semiannual Report September 2001




the importance of balance in establishing accountability measures stressing that research
and business interests should complement, not conflict. SRA is interested in developing
a career path for research administrators with a focus on requisite educational courses
and continuing training.

      At the Northeast Conference on College Cost Accounting, we presented an
overview of the type of audits that we conduct at universities, emphasizing areas of
concern to us such as cost-sharing. The conference provided an opportunity to share
and discuss common issues. In addition to learning about NSF’s audit approach and
policies, attendees were also interested in our interpretation of specific issues contained
in Office of Management and Budget circulars.

     The National Center for
Atmospheric Research and the
University Corporation for
Atmospheric Research invited the
Inspector General to address
scientists in Boulder, Colorado on
the importance of accountability
in research.       Scientists and
administrators from the National
Oceanic and Atmospheric
Administration, the National
Institute of Standards and
Technology, the University of           Attending a meeting of research scientists at
Colorado, and the Colorado                 UCAR are: William Suhre, Department of
School of Mines also participated    Commerce; Richard Anthes, UCAR; Kathy Schmoll,
in the session. The IG spoke            UCAR; the Inspector General; and Ed Blansitt,
about misconduct policies and                    Department of Commerce.
procedures, research compliance,
and financial auditing principles.
The presentation emphasized the Federal government’s interest in these topics and
how the government engages in oversight. Institutional responsibilities and the role
of institutional management were also discussed. The NSF IG was joined by the
Deputy IG from the Department of Commerce who spoke about the purpose and
importance of the Chief Financial Officer Act and the Government Performance
and Results Act.




                                                                                              51
Outreach




           Research Ethics and
           Allegations of Misconduct in Science

                 We continue to seek feedback from institutions to improve the assistance we
           provide in the deferral of misconduct cases by conducting post-deferral visits. Once
           OIG learns of an allegation of misconduct, it usually “inform[s] the awardee institution
           of the alleged misconduct and encourage[s] it to undertake an inquiry” or “defer[s]
           to the inquiries or investigations of the awardee institution or of another Federal
           agency” (45 CFR 689.4; see also 45 CFR 689.5). Once the institution completes its
           investigation, OIG performs an independent assessment of the accuracy and
           completeness of the report and submits a recommended disposition to NSF (45
           CFR 689.8). Once the institution completes its investigation, OIG performs an
           independent assessment of the accuracy and completeness of the report and submits
           a recommended disposition to NSF (45 CFR 689.8). Recently at a post-deferral visit
           to a private university in Washington, D.C., we learned that the university found our
           assistance helpful in explaining exactly what NSF needed and in assisting them in
           planning their process. Representatives also said that the experience made them
           aware of the need to implement changes in the university’s policy.

                  In different sessions, one hosted by the University of Texas Medical Branch
           (UTMB) and another by University of South Alabama (USA), we presented an
           overview of NSF and OIG, described how we investigate allegations, and engaged
           the audience in case studies. In the UTMB session for administrators and faculty, we
           were afforded the opportunity to discuss the UTMB policies on allegations and provide
           some issues for consideration. We also learned that grantees are seeking additional
           guidance from NSF regarding the roles and responsibilities of co-principal
           investigators.

                We also strive to reach new audiences that interact with NSF. Therefore, we
           were pleased to participate with NSF’s Office of General Counsel in a two-day
           workshop on “Legal Issues and Strategies for Responding to Research Misconduct
           Allegations” co-sponsored by the American Association for the Advancement of
           Science and the Office of Research Integrity at the Department of Health and Human
           Services. We moderated a workshop panel on “Preparing the Investigation Report
           and Disclosure Responsibilities.” Because many of the attendees were attorneys
           from university offices of legal counsel, this workshop enabled us to reach an audience
           we do not normally reach.

                We continue to make presentations on research misconduct issues and about
           the OIG. They include:




   52
                                                                 OIG Semiannual Report September 2001




    •   a meeting on Teaching Responsible Conduct of Research sponsored by the
        organization Public Responsibility in Research and Medicine and two meetings
        of the Society of Research Administrators.
    •   a professional development seminar for advanced doctoral students in
        psychology.



Programs for NSF Employees

      We continue to reach out to NSF employees by routinely participating in training
programs for new employees as part of division-specific orientations and program
managers seminars. In orientation programs for NSF’s directorates of Education
and Human Resources (EHR) and Mathematics and Physical Sciences (MPS) and the
Program Managers Seminars, we briefed new program officers on the issues they are
required to bring to our attention and provided several case studies dealing with
issues such as plagiarism, data sharing, and conflict of interests, to illustrate how our
office handles these matters. We also stressed attention to the award administration
problems we encounter during financial audits. This work enables us to raise awareness
of fraud, waste and abuse issues among new employees as well as interact on a one-
to-one level, in an informal setting, with other NSF employees.

      Regular contacts with staff also arise from our support of NSF’s on-going
conflicts of interest training. We encourage NSF employees to use agency procedures
to address all potential conflicts and to understand the consequences of not doing so.
In addition, as part of our ongoing liaison program, we have met with NSF divisions
to discuss our office’s role in ensuring the integrity of NSF’s award system. We find
that our ongoing discussions result in an increased awareness regarding potential
problem areas and subsequent referrals of allegations to our office.

     We have also invited representatives from several NSF offices to give presentations
about their offices at our monthly staff meeting. During this period, we have hosted
representatives from the Budget Operations and Systems Branch, the Office of Budget,
Finance, and Award Management, the NSF Library, and the Office of Legislative and
Public Affairs. We find that we learn new information and obtain a good perspective
on various NSF offices.




                                                                                            53
Outreach




           Cooperative Work with NSF and Other Agencies

                 We continue to assist NSF and work with other Federal agency and OIG staff
           in the implementation of the OSTP policy on research misconduct. We serve as the
           liaison between the OSTP agency Implementation Group and the Inspectors General
           community. The NSF IG is Chairperson of the PCIE/ECIE Misconduct in Research
           Group. This group completed a supplement to the Quality Standards for Investigations
           brochure which provides guidance on the conduct of research misconduct
           investigations.

                In addition, in this semiannual period we have worked with NSF to present
           information to the NSF grant community regarding NSF policies and procedures
           and the importance of adhering to NSF guidance and rules. We presented a portion
           of the Grants and Administration section of NSF’s Regional Grants Seminars. We
           attended a conference for awardees of the Rural Systemic Initiative program in EHR,
           whose awardees include school systems, tribal governments, and other organizations
           that often have limited experienced in administering Federal awards.

                In conjunction with NSF’s Office of Contracts, Policy, and Oversight, we
           presented an NSF Update session at the Society of Research Administrators (SRA)
           Joint Northeast and Midwest Sections Meeting.




   54
                                                  Statistical Data



Reporting Terms Defined                              56


Audit Reports Issued
with Recommendations for Better Use of Funds         57


Audit Reports Issued with Questioned Costs           58


Audit Reports Involving Cost-Sharing Shortfalls      59


Status of Recommendations Involving
Internal NSF Management Operations                   60


List of Reports                                      61


Audit Reports With
Outstanding Management Decisions                     63


Investigative Activity and Statistics                64


Administrative Statistics                            65




                                                     55
Statistical Data




                   Reporting Terms Defined
                        Some of the more common terms that we use in reporting audit statistics and
                   findings are defined below:

                   Questioned Cost. Auditors question costs because of an alleged violation of a
                   provision of a law, regulation, grant, cooperative agreement, or contract. In addition,
                   a questioned cost may be a finding in which, at the time of the audit, either a cost is
                   not supported by adequate documentation, or the expenditure of funds for the
                   intended purpose is deemed unnecessary or unreasonable.

                   Unsupported Cost. A cost that is questioned because it is not supported by adequate
                   documentation at the time of audit.

                   Unresolved Costs. Costs that have been claimed, but can not be evaluated at the
                   time of the audit because either: 1) the criteria for their measurement has not been
                   established; 2) the period for establishing the criteria is not complete or 3) the criteria
                   is unclear or ambiguous. This category most frequently applies to indirect costs. For
                   example, if a final indirect cost rate has not been determined for a particular period,
                   the claimed indirect costs for that period would be classified by the auditor as
                   unresolved costs.

                   Management Decision. Management’s evaluation of the findings and
                   recommendations included in the audit report and the issuance of a final decision by
                   management containing its response to such findings and recommendations. It is
                   important to note that NSF is responsible for making a management decision regarding
                   questioned costs that determines whether they will be sustained (i.e., disallowed) or
                   allowed.

                   Funds Put to Better Use. Audit recommendations that identify ways to improve
                   the efficiency of programs frequently lead to prospective benefits over the life of an
                   award or funds put to better use. Examples include reducing outlays, deobligating
                   funds, or avoiding unnecessary expenditures.

                   Final Action. The completion of all management actions that are described in a
                   management decision with respect to audit findings and recommendations. If
                   management concluded that no actions were necessary, final action occurs when a
                   management decision is issued.

                   Compliance or Internal Control Issues. Audits often result in recommendations
                   either to improve the auditee’s compliance with NSF and federal regulations, or to
                   strengthen the auditee’s internal control structure to safeguard federal funds from
                   fraud, waste, abuse, and mismanagement.



         56
                                                         OIG Semiannual Report September 2001




Audit Reports Issued with Recommendations
for Better Use of Funds

                                                                  Dollar Value
A. For which no management decision has been made by the
   commencement of the reporting period                                     0

B. Recommendations that were issued during the reporting period       $50,000

C. Adjustments related to prior recommendations                              0

Subtotal of A+B+C                                                     $50,000

D. For which a management decision was made during the
   reporting period                                                         0

   i) Dollar value of management decisions that were consistent
      with OIG recommendations                                              0

   ii) Dollar value of recommendations that were not agreed
       to by management                                                     0

E. For which no management decision had been made by the
   end of the reporting period                                        $50,000

For which no management decision was made within
6 months of issuance                                                        0




                                                                                 57
Statistical Data




                   Audit Reports Issued with Questioned Costs
                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs



                   A. For which no management            17     $1,640,676   $478,031
                      decision has been made by the
                      commencement of the reporting
                      period

                   B. That were issued during the        13     $5,389,095 $3,294,455
                      reporting period

                   C. Adjustment related to prior         1      $137,076      $0
                      recommendations

                   Subtotal of A+B+C                     31     $7,166,847 $3,772,486

                   D. For which a management             18     $1,777,752   $478,031
                      decision was made during the
                      reporting period

                      i) dollar value of disallowed      N/A     $967,024      N/A
                          costs
                      ii) dollar value of costs not      N/A     $810,728      N/A
                          disallowed

                   E. For which no management            13     $5,389,095 $3,294,455
                      decision had been made by the
                      end of the reporting period

                   For which no management decision       0         0           0
                   was made within 6 months of
                   issuance




         58
                                                                OIG Semiannual Report September 2001




Audit Reports Involving Cost-Sharing Shortfalls
                                     Number       Cost-   At Risk of     Actual
                                       of        Sharing Cost Sharing Cost Sharing
                                     Reports    Promised  Shortfall    Shortfalls
                                                          (Ongoing    (Completed
                                                           Project)     Project)

A. Reports with monetary               4       $3,018,274    $491,459    $70,421
    findings for which no
    management decision has
    been made by the beginning
    of the reporting period:

B. Reports with monetary                3      $9,967,398       0        $194,125
    findings that were issued
    during the reporting period:


C. Adjustments related to prior        0            0           0           0
    recommendations

Total of Reports with Cost Sharing     7       $12,985,672   $491,459    $264,546
Findings (A+B+C)

D. For which a management              4       $3,018,274    $491,459    $70,421
    decision was made during the
    reporting period:

    1. Dollar value of cost-           N/A        N/A        $491,459     $4.056
       sharing shortfall that
       grantee agreed to provide.
    2. Dollar value of cost-           N/A        N/A           0        $66,365
       sharing shortfall that
       management waived

E. Reports with monetary               3       $9,967,398       0        $194,125
    findings for which no
    management decision has
    been made by the end of the
    reporting period.




                                                                                        59
Statistical Data




                   Status of Recommendations
                   Involving Internal NSF Management Operations

                   Open Recommendations (as of 9/30/01)
                      Recommendations Open at the Beginning of the Reporting Period                      13
                      New Recommendations Made During Reporting Period                                   81
                      Total Recommendations to be Addressed                                              94

                   Management Resolution of Recommendations1
                     Awaiting Resolution                                                                 80
                     Resolved Consistent With OIG Recommendations                                        14

                   Management Decision That No Action is Required                                          0

                   Final Action on OIG Recommendations
                       Final Action Completed                                                             8
                       Recommendations Open at End of Period                                             86

                   Aging of Open Recommendations
                      Awaiting Management Resolution:
                          0 through 6 months                                                             80
                          7 through 12 months                                                             0
                          More than 12 months                                                             0

                   Awaiting Final Action After Resolution2
                          0 through 6 months                                                              0
                          7 through 12 months                                                             6
                          13 through 18 months                                                            0


                   1
                     “Management Resolution” occurs when the OIG and NSF management agree on the corrective
                   action plan that will be implemented in response to the audit recommendations. The OIG is
                   currently reviewing one action plan that addresses 59 recommendations.
                   2
                     “Final Action” occurs when management has completed all actions it agreed to in the corrective
                   action plan.




         60
                                                        OIG Semiannual Report September 2001




List of Reports


NSF and CPA Performed Reviews
                                                             Better Cost
Report                                Questioned Unsupported
          Subject                                            Use of Sharing
Number                                  Costs       Costs
                                                             Funds At-Risk
01-1010   Museum                             $0           $0       $0    $0
01-1011   For-profit Organization      $337,589     $331,791       $0    $0
01-1012   Engineering Center                 $0           $0       $0    $0
01-1013   Science Museum                     $0           $0       $0    $0
01-1014   University Foundation              $0           $0       $0    $0
01-1015   University                         $0           $0       $0    $0
01-1016   For-profit Company             $4,774       $4,774       $0    $0
01-1017   State University              $90,602           $0       $0    $0
01-1018   University Foundation          $6,759           $0       $0    $0
01-1019   University                    $96,764           $0       $0    $0
01-1020   Educational Non-profit       $215,788           $0       $0    $0
01-1021   For-profit Organization       $22,240           $0       $0    $0
01-1022   For-profit Organization      $677,556       $4,953       $0    $0
01-1023   For-profit Organization      $187,278      $16,343       $0    $0
01-1024   Southern University          $387,471           $0       $0    $0
01-1025   Municipal School District   $3,336,687   $2,936,594      $0    $0
01-2005   Program Annual Report              $0           $0       $0    $0
01-2006   Annual NSF Report                  $0           $0       $0    $0
01-2007   NSF Support Review                 $0           $0 $50,000     $0
01-2008   NSF Internal Report                $0           $0       $0    $0
01-2009   Engineering Center                 $0           $0       $0    $0
01-2010   NSF Internal Report                $0           $0       $0    $0
01-6002   Major Project Review               $0           $0       $0    $0
          Total:                      $5,363,508   $3,294,455 $50,000    $0




                                                                                61
Statistical Data




                   NSF-Cognizant Reports
                                                                                 Cost
                   Report                              Questioned Unsupported
                             Subject                                            Sharing
                   Number                                Costs       Costs
                                                                                At-Risk

                   01-4015   Museum                        $0         $0         $0
                   01-4016   Museum                        $0         $0         $0
                   01-4017   Museum                        $0         $0         $0
                   01-4018   Science Academy               $0         $0         $0
                   01-4019   Research Organization         $0         $0         $0
                   01-4020   Research Organization         $0         $0         $0
                   01-4021   University Association.       $0         $0         $0
                   01-4022   Research Organization         $0         $0         $0
                   01-4023   Science Group                 $0         $0         $0
                   01-4024   Science Museum            $25,473        $0         $0
                   01-4025   Educational Foundation.       $0         $0         $0
                   01-4026   Science Museum                $0         $0         $0
                   01-4027   University Association        $0         $0         $0
                             Total:                    $25,473        $0         $0




                   Other Federal Audits
                                                                                 Cost
                   Report                              Questioned Unsupported
                             Subject                                            Sharing
                   Number                                Costs       Costs
                                                                                At-Risk

                   01-5081   Southwest University         $114         $0         N/A
                             Total                        $114         $0         N/A




         62
                                                                OIG Semiannual Report September 2001




Audit Reports With
Outstanding Management Decisions
      This section identifies audit reports involving questioned costs, funds put to
better use, and cost sharing at risk where management had not made a final decision
on the corrective action necessary for report resolution within 6 months of the report’s
issue date. At the end of the reporting period there are no reports remaining that
meet this condition. The one report remaining open at the end of the last period has
been closed. The status of recommendations that involve internal NSF management
is described on page 60.




                                                                                           63
Statistical Data




                       Investigations Case Activity

                                                       Preliminary          Civil/Criminal        Administrative


                          Active Cases
                          From Previous
                          Reporting Period                 11                      23                      24

                          New Cases                        42                      15                      19

                          Closed Cases                     45                       9                      17

                          Active Cases                      8                      29                      26




                       Investigations Case Statistics


                          New Referrals                                          4
                          Criminal Convictions/Pleas                             0
                          Civil Settlements                                      1
                          Administrative Actions                                 0
                          Investigative Recoveries3                         $290,874.42

                   3
                    Investigative recoveries include civil penalties, criminal fines, and funds paid in restitution,
                   as well as specific cost savings for the government.




         64
                                                                     OIG Semiannual Report September 2001




                                             Administrative Statistics



    Cases Forwarded to the Office
    of the Director for Adjudication                                                   2

    Cases Reported in Prior Periods With No
    Adjudication by the Office of the Director4                                        2

    Number of Debarments in Effect During This Period                                  4

    Assurances and Certifications Received 5

       Number of Cases Requiring Assurances During This Period                         8
       Number of Cases Requiring Certifications During This Period                     9
       Assurances Received During This Period                                          7
       Certifications Received During This Period                                      0




4
 These cases are described in our March 2001 Semiannual Report (pages 26-27).
5
 NSF accompanies some findings of misconduct in science with a certification and/or
assurance requirement. For a specified period, the subject must confidentially submit to OIG
a personal certification and/or institutional assurance that any newly submitted NSF proposal
does not contain anything that violates NSF’s regulation on misconduct in science. These
certifications and assurances remain in OIG and are not known to, or available to, NSF
program officials. In one case not involving misconduct in science, described in our Septem-
ber 2000 Report (page 26), NSF required the subject and his institution to submit to the
appropriate NSF program an assurance of compliance with appropriate requirements and
procedures with any proposal involving biohazardous research.




                                                                                                65
                                                                                              Appendix 1




                                                               Reporting Requirements


Under the Inspector General Act, we report to the Congress every six months on the following
activities:

Reports issued, significant problems identified, the value of questioned costs and recommendations that
funds be put to better use, and NSF’s decisions in response. (See IG’s Letter and p. 55)

Matters referred to prosecutors, and the resulting prosecutions and convictions. (See p. 33, 64)

Revisions to significant management decisions on previously reported recommendations, and significant
recommendations for which NSF has not completed its response. (See p. 60, 63)

Legislation and regulations that may affect the efficiency or integrity of NSF’s programs. (See p. 44)

OIG disagreement with any significant decision by NSF management. (None)

Any matter in which the agency unreasonably refused to provide us with information or assistance.
(None)




                                                                            67
                                                                                                 Appendix 2




                                                               Management Challenges



     F
           or the fourth year, Congress has requested that each Inspector General submit an annual list
            of the top ten management challenges facing his or her agency. Responding to this request
            has become an integral part of our strategic planning process. After careful consideration, we
submitted to Congress the following challenges that we deemed most crucial to the future success of the
agency.

Management of Large Infrastructure Projects: NSF spends approximately $1 billion a year in the
aggregate for cutting-edge research facilities and equipment projects, some of which cost hundreds of
millions of dollars. Successful management of these projects and programs requires a more disciplined
project management approach.

Cost Sharing: Significant problems persist with award recipients not meeting their cost- sharing
requirements. Because of the importance of these contributions to the research community, and the
detrimental impact a shortfall can have on a project, we consider improvements in administering cost
sharing to be among the most important priorities for NSF management.

Management of U.S. Antarctic Program: Charged with managing all U.S. activities in the Antarctic as
a single program, NSF’s Office of Polar Programs (OPP) funds research and provides the infrastructure
and logistics necessary to conduct scientific experiments. OPP staff must not only have scientific knowledge,
but must also be able to oversee and monitor the performance of contractors engaged in delivering a
broad range of services to the American scientific community in the harsh polar environment.

Award Administration: NSF is challenged to monitor its awards adequately, in terms of scientific
accomplishments and compliance with award agreements and federal regulations. The agency needs to
establish more coordinated oversight between its program officers and its grant and contract officers to
ensure better sharing of information and more effective award administration.

Merit Review: NSF must continue to ensure that reviewers correctly apply NSF’s review criteria, that the
merit review process gives due consideration to ideas, individuals, and institutions which have not received
past support, and that the process is effectively administered.

Data Security: Next year NSF will depend on its automated computer systems to manage over $4 billion
in funds and to process over 35,000 grant proposals. Therefore, it is imperative that NSF’s systems are
developed and operated with appropriate security controls to reduce the ever increasing risk of unauthorized
access that could compromise data integrity, confidentiality, and/or availability.

FastLane: FastLane facilitates administrative transactions with the research community via the Internet.
The development and implementation of FastLane, which began in 1994, has moved the agency closer to



                                                                                            69
Appendix 2




             the goal of establishing a widely accessible paperless proposal and award process.
             However, since FastLane serves as the primary interface between NSF and its award
             recipients and is critical to many of NSF’s administrative plans and goals, management
             must continue to monitor its progress to ensure that the system is user-friendly and
             reliable.

             Government Performance Results Act (GPRA) Data Quality: A recent GAO
             study listed as a key weakness of NSF’s FY 2000 Performance Plan that it, “provides
             limited confidence in the validation and verification of data”. To address this criticism
             the agency has contracted with a public accounting firm to assist in validating the
             performance data it reports. We believe that NSF should follow-up on its search for
             ways to ensure data quality.

             Work Force Planning and Training: Although NSF has had significant increases
             in its program responsibilities and budgets in recent years, salaries and expenses have
             remained relatively flat. Concerns about the adequacy of staffing come at a time
             when the government as a whole is facing succession planning and recruiting problems.
             In addition, NSF’s reliance on personnel who serve under a term appointment poses
             a challenge to the agency to ensure that such staff is adequately trained to administer
             awards.

             Fostering a Diverse Scientific Workforce: NSF’s most recent performance plan
             promises that the agency will begin implementing new strategies to increase diversity.
             However, because such programs are difficult to implement, NSF needs to define its
             diversity strategies clearly and develop concrete steps to implement them.




     70
                                                                     Appendix 3




                                                                   Acronyms

AGA       Association of Government Accountants
AO        Administrative Officer
A&O       Audit and Oversight Committee
CAARB     Cost Analysis and Audit Resolution Branch
CFR       Code of Federal Regulations
CIRT      Computer Incident Response Team
CPO       Division of Contracts, Policy and Oversight
DCAA      Defense Contract Audit Agency
DGA       Division of Grants and Agreements
DHHS      Department of Health and Human Services
ECIE      Executive Council of Integrity and Efficiency
EHR       Directorate for Education and Human Resources
EPA       Environmental Protection Agency
ERC       Energy Research Center
FedCIRC   Federal Computer Incident Response Center
FOIA      Freedom of Information Act
GAO       General Accounting Office
GISRA     Government Information Security Act
GPRA      Government Performance and Results Act
GRS       General Records Schedule
HUD       Department of Housing and Urban Development
IACUC     Institutional Animal Care and Use Committee
METI      Ministry of Economy, Trade and Industry
MPA       Multiple Project Assurance
MPS       Directorate for Mathematics and Physical Sciences
NARA      National Archives and Records Administration
NASA      National Aeronautics and Space Administration
NEA       National Endowment for the Arts
NSB       National Science Board
ODP       Ocean Drilling Program
OIG       Office of Inspector General
OMB       Office of Management and Budget
OPP       Office of Polar Programs
OSTP      Office of Science and Technology Policy
PCIE      President’s Council on Integrity and Efficiency
PI        Principal Investigator
PFCRA     Program Fraud Civil Remedies Act
R&D       Research and Development
SBIR      Small Business Innovation Research
SRA       Society of Research Administrators
USA       University of South Alabama
USAP      United States Antarctic Program
UTMB      University of Texas Medical Branch
VA        Veterans Administration


                                                              71
                      Organization Chart



                             INSPECTOR
                              GENERAL
                            Christine C. Boesz


                           DEPUTY INSPECTOR
                               GENERAL
                                Tim Cross
COUNSEL TO THE
  INSPECTOR
   GENERAL

  Arthur A. Elkins




ASSOCIATE IG FOR                                 ASSOCIATE IG FOR
     AUDIT                                       INVESTIGATIONS

 Deborah H. Cureton                                 Peggy L. Fischer




     AUDIT                 ADMINISTRATIVE         INVESTIGATIVE
     STAFF                     STAFF                  STAFF




    Back cover photograph: Jerry Macala/South Pole Station on September 12, 2001
                  National Science Foundation
                   Office of Inspector General
                  4201 Wilson Blvd., Rm. 1135
                     Arlington, VA 22230

             Internet Web Site: http://www.oig.nsf.gov
                     Telephone: 703-292-7100
To Report Fraud, Waste or Abuse, Call Our Hotline: 1-800-428-2189
